OFFICE OF INSPECTOR GENERAL 



Audit of USAID/Afghanistan’s
Oversight of Private Security
Contractors in Afghanistan
AUDIT REPORT NO. 5-306-10-009-P 

MAY 21, 2010 





MANILA, PHILIPPINES 

Office of Inspector General


May 21, 2010

MEMORANDUM

TO: 	                     USAID/Afghanistan Mission Director, William M. Frej

FROM: 	                   Regional Inspector General/Manila, Bruce N. Boyer /s/

SUBJECT: 	                Audit of USAID/Afghanistan’s Oversight of Private Security Contractors in
                          Afghanistan (Audit Report No. 5-306-10-009-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and included the comments in their entirety in
appendix II.

The report contains eight audit recommendations to strengthen USAID/Afghanistan’s oversight
of private security contractors contracted by its implementing partners. On the basis of the
information provided by the mission in response to the draft report, we determined that a
management decision has been achieved on recommendations 1, 2, 3, 4, 6, 7, and 8. A
determination of final action will be made by the Audit Performance and Compliance Division
upon completion of the planned corrective actions addressing these seven recommendations.
Final action has been achieved on recommendation 5.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov
CONTENTS
 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 4 


Audit Objectives ................................................................................................................ 5
 


Audit Findings ................................................................................................................. 6 


What types of serious security incidents have been reported by private security 

firms contracted with USAID/Afghanistan’s implementing partners during the
period from October 1, 2006, through June 30, 2009? ..................................................... 6 


     USAID/Afghanistan’s Database of Serious Incidents Is
     Incomplete and Unreliable .......................................................................................... 7 


     USAID/Afghanistan Should Implement a Formal Incident Reporting Process ............ 9 


Has USAID/Afghanistan ensured that its implementing partners subcontracted with 

responsible private security firms?.................................................................................. 11 


     USAID/Afghanistan-Funded Security Contractors Must Comply With 

     Afghan Licensing Requirements ............................................................................... 13 


     Contracting Officers Should Provide or Deny Consent to Security Subcontracts ..... 14 


     USAID/Afghanistan Should Use Existing Contract Clause To Impose Some 

     Security Standards.................................................................................................... 16 


     Formal Security Instructions Are Needed ................................................................. 18 


How much has been spent by USAID/Afghanistan’s implementing partners 

for private security services, and has there been effective oversight of 

these security costs?...................................................................................................... 20 


Evaluation of Management Comments ....................................................................... 24


Appendix I—Scope and Methodology......................................................................... 26 


Appendix II—Management Comments........................................................................ 28 


Appendix III—Key Statutory Requirements in Sections 862 and 864 of the 

National Defense Authorization Act for Fiscal Year 2008, as Amended.................. 33 


Appendix IV—Interim Final Rule Implementing Section 862(a) of the National 

Defense Authorization Act for Fiscal Year 2008 ........................................................ 39

SUMMARY OF RESULTS
 

USAID relies on private security contractors (PSCs) to protect its implementing partners
in hostile environments. PSCs support U.S. efforts to stabilize and reconstruct
Afghanistan, and they free military forces for their core missions. However, the murder
of 4 security contractors in Iraq in 2004 and the killing of 17 Iraqi civilians by security
contractors in 2007 raised concerns about failures to supervise contractor performance
adequately and to properly investigate alleged killings by security contractors. The
incidents prompted legislative and regulatory reforms to prevent a recurrence and to
ensure proper investigations should such incidents occur.

The Regional Inspector General/Manila carried out this audit to answer the following
questions:

•	 What types of serious security incidents have been reported by private security firms
   contracted with USAID/Afghanistan’s implementing partners during the period from
   October 1, 2006, through June 30, 2009?

•	 Has USAID/Afghanistan ensured that its implementing partners subcontracted with
   responsible private security firms?

•	 How much has been spent by USAID/Afghanistan’s implementing partners for
   private security services, and has there been effective oversight of these security
   costs?

The statutory and regulatory provisions intended to oversee the qualifications and
conduct of all non-Department of Defense (non-DOD) PSCs in Afghanistan are to be
implemented through formal instructions issued Mission-wide.1 We have been informed
by the regional security officer that Mission-wide instructions have been drafted but not
issued, and USAID/Afghanistan has not issued its own instructions. The absence of
Mission-wide instructions has resulted in USAID/Afghanistan’s not having reasonable
assurance that PSCs are reporting all serious security incidents, are suitably qualified,
and are authorized to operate in Afghanistan.

More specifically, with regard to the first question above, USAID/Afghanistan received
149 incident reports from October 1, 2006, through June 30, 2009, 44 of which met the
definition of a serious incident. However, the audit found that USAID/Afghanistan is not
receiving all reports of casualties and serious incidents because it has no standard
provision in its agreements that would require such reports. Also, USAID/Afghanistan
has only an informal process for handling reported incidents. Therefore, there is no
assurance that USAID/Afghanistan has reliable or complete reports on the types and
numbers of incidents that have occurred. (See page 6.)

Regarding the second question, USAID/Afghanistan’s oversight of private security firms
contracted by its implementing partners has not ensured that only responsible private
security firms are employed. (See pages 11-13.) Although USAID/Afghanistan

1
 In this report, the term “Mission” refers to the departments and agencies under the authority of the Chief of
Mission.


                                                                                                            1
established a safety and security office, and USAID/Afghanistan’s contracting office has
used some of the existing oversight tools available to it, these efforts have not ensured
that only responsible firms are employed, because USAID/Afghanistan has provided
only limited oversight and direction relative to standards and requirements for security.
For example, two PSCs were not licensed with the Afghan Government, and
USAID/Afghanistan did not provide subcontracting consent for 17 private security firms
or include in its contracts a clause to require various security measures. Moreover,
USAID/Afghanistan has no standard assistance (grant) award provision related to
security, so about a third of USAID/Afghanistan’s awards with subcontracted security
have no standard security requirements.

Even if USAID/Afghanistan had properly addressed these matters, its efforts would not
have been sufficient, because statutory and regulatory provisions intended to provide for
the oversight of the qualifications and conduct of PSCs in Afghanistan have not been
implemented through formal Mission-wide instructions. Consequently, PSCs have not
been subjected to contract provisions and regulations contemplated by these governing
laws to ensure that such contractors are qualified and responsible.

With regard to the third question, on security costs, USAID/Afghanistan’s prime
implementing partners reported that, for the period October 1, 2006, through June 30,
2009, they had charged about $167 million for subcontracted PSC services. On
average, these services accounted for 8.3 percent of award disbursements.
Implementing partners also charged about $12 million for other security services and
security-related items. (See pages 20-23.) With regard to effective oversight of security
costs, USAID/Afghanistan and others faced challenges in providing such oversight. The
audit found no specific requirements applicable to this category of costs and few
requirements relative to the audit of subcontractor costs. Recommended improvements
to subcontracting consent will clarify USAID/Afghanistan’s procedures for funding
security firms, thus providing better opportunities for oversight.

To address these matters, the report recommends (pages 9, 11, 14–17, and 20) that:

•	 In the absence of Mission-wide instructions, USAID/Afghanistan’s Director of
   Acquisition and Assistance include a clause or provision in all acquisition and
   assistance agreements to require the implementing partner to report information on
   casualties as well as serious incidents.

•	 In the absence of Mission-wide instructions, USAID/Afghanistan devise and
   implement a formal process for its employees to forward reports of serious incidents
   and casualties to a designated office that will collect the reports.

•	 USAID/Afghanistan’s Director of Acquisition and Assistance provide written
   notification to the implementing partners responsible for the two awards to
   unlicensed private security contractors to use only licensed private security
   contractors.

•	 USAID/Afghanistan’s Director of Acquisition and Assistance require that the
   implementing partners—to which the 17 private security companies have been
   subcontracted—provide what would customarily be advance notification to




                                                                                       2
   USAID/Afghanistan, so that consent to subcontract may be considered and granted
   or refused.

•	 USAID/Afghanistan’s Director of Acquisition and Assistance issue written guidance
   to existing implementing partners and the office’s contracting officers, reminding
   them of the requirements of using only licensed security contractors.

•	 USAID/Afghanistan’s contracting officer add Federal Acquisition Regulation Clause
   52.225-19, “Contractor Personnel in a Designated Operational Area or Supporting a
   Diplomatic or Consular Mission Outside the United States,” to all its existing
   acquisition awards and issue guidance to include the clause in future awards.

•	 USAID/Afghanistan’s contracting officer request in writing that the Chief of Mission
   issue Mission-wide instructions for non-DOD (Department of Defense) PSCs and
   their personnel, as required by the Interim Final Rule as codified in the Code of
   Federal Regulations (32 CFR 159.4(c)), to either (1) implement standards set forth
   by the geographic combatant commander or (2) instruct non-DOD PSCs and their
   personnel to follow the guidance and procedures developed by the geographic
   combatant commander and/or subordinate commander.

•	 In the absence of Mission-wide instructions, USAID/Afghanistan’s contracting officer
   request in writing that the Office of Acquisition and Assistance provide acquisition
   and assistance award language to regulate subcontracted private security services.

The Office of Inspector General evaluated the mission’s response to the draft report and
determined that a management decision has been achieved on recommendations 1, 2,
3, 4, 6, 7, and 8. Final action has been achieved on recommendation 5. (See pages 9,
11, 14–17, and 20.) Management comments are included in their entirety in appendix II.
(See page 28.)




                                                                                      3
BACKGROUND
 

Although security support in areas of combat operations has traditionally been
considered primarily a military responsibility, USAID relies on private security contractors
(PSCs) to supply an array of security services for its implementing partners in
Afghanistan. Given the many demands on U.S. troops, PSCs are viewed by some as a
vital support to U.S. efforts to stabilize and reconstruct Afghanistan. These contractors
free military forces for their core missions and provide protection to USAID’s
implementing partners in hostile environments.

However, not all opinions about the U.S. Government’s use of PSCs are positive. The
murder of four Blackwater (now Xe Services, LLC) security contractors in Fallujah, Iraq,
in 2004 and the killing of 17 Iraqi civilians by Blackwater employees in Baghdad’s Nisur
Square in 2007 heightened the visibility of PSC activities. Intensified scrutiny of private
security revealed a breakdown in basic contract management procedures. Among the
concerns voiced were U.S. Government failures to supervise contractor performance
adequately or to properly investigate killings allegedly committed by PSC personnel.
The two Blackwater incidents prompted regulatory and legislative reforms to bring about
accountability for and oversight of PSCs. Clearly, two intents of initiating these reforms
were to prevent a recurrence of incidents like those involving Blackwater and to ensure
proper investigations should such incidents occur.

One of the most notable legislative reforms was articulated in sections 861 and 862 of
the National Defense Authorization Act for Fiscal Year 2008, enacted on January 28,
2008 (NDAA FY 2008). NDAA FY 2008 section 861 directed the Secretary of Defense,
the Secretary of State, and the Administrator of USAID to execute a memorandum of
understanding regarding matters relating to contracting in Iraq or Afghanistan, such as
security contracting procedures, the establishment of common databases, and
accountability for PSCs. NDAA FY 2008 section 862 set forth requirements to ensure
oversight of PSCs in areas of combat operations, including Afghanistan, through
regulatory measures and mandatory insertion of contract provisions.

Section 862(a) required that the Secretary of Defense, in coordination with the Secretary
of State, prescribe regulations on the selection, training, equipping, and conduct of
personnel performing private security functions under a covered contract in an area of
combat operations. The Office of the Secretary of Defense accordingly promulgated an
Interim Final Rule on July 17, 2009, codified at 32 CFR 159, governing DOD and non-
DOD PSC oversight in designated combat areas, including Afghanistan. (See appendix
IV.) As of the date of this report, a Mission-wide policy is being developed.

Section 862(b) required that the Federal Acquisition Regulation be revised to mandate
insertion into each covered contract of a clause containing specified oversight
requirements, including a requirement that the contractor comply with regulations
prescribed under section 862(a).

The Commission on Wartime Contracting in Iraq and Afghanistan noted that some of
these reforms have been significant. However, the same report2 noted a disparity

2
    At What Cost? Contingency Contracting in Afghanistan and Iraq, issued June 10, 2009.

                                                                                           4
between the ways these reforms were implemented in Iraq versus Afghanistan, with
Afghanistan trailing behind in terms of PSC oversight. Although the memorandum of
understanding required by section 861 became effective in July 2008, not all of the
memorandum’s provisions have been put into practice in Afghanistan. Additionally, it is
notable that policies governing USAID-funded armed PSC employees have been issued
for Iraq, but no corresponding policies have been issued for Afghanistan. This vacuum
of procedural guidance has caused USAID to perform little oversight and to institute few
requirements with respect to USAID’s PSCs in Afghanistan.

AUDIT OBJECTIVES
The Inspector General directed that audits be performed in both Iraq and Afghanistan.
Accordingly, the Regional Inspector General/Manila carried out this audit as part of its
FY 2009 annual audit plan to answer the following questions:

   •	 What types of serious security incidents have been reported by private security
      firms contracted with USAID/Afghanistan’s implementing partners during the
      period from October 1, 2006, through June 30, 2009?

   •	 Has USAID/Afghanistan ensured that its implementing partners subcontracted
      with responsible private security firms?

   •	 How much has been spent by USAID/Afghanistan’s implementing partners for
      private security services, and has there been effective oversight of these security
      costs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       5
AUDIT FINDINGS
 

What types of serious security incidents have been reported by
private security firms contracted with USAID/Afghanistan’s
implementing partners during the period from October 1, 2006,
through June 30, 2009?

USAID/Afghanistan received 44 reports between October 1, 2006, and June 30, 2009,
that met the definition of a serious incident involving employees of private security
contractors (PSCs). As detailed in the table on page 8, the reports disclosed that in 140
instances, PSC personnel were killed or injured; in 26, PSC personnel discharged a
weapon; and in 41, PSC personnel came under attack.3 However, USAID/Afghanistan
received additional reports, beyond those meeting the definitions of a serious incident
involving a PSC. These reports detailed a wide range of incidents, from minor accidents
that took place during off-duty hours to violent attacks against PSC employees and
implementing partners working at project sites. Examples range from “rock falling on
head” and “burned by oil in the kitchen” to vague accounts of events such as “ambush”
or “disappeared” with no other explanation as to what had occurred. USAID/Afghanistan
also received many detailed accounts of grave attacks against personnel at project sites,
such as the following:

    On 09-Dec-2008 at approximately 09:50 . . . two USPI . . . escort vehicles were
    returning from Lashkar Gah city after buying food for the guards. . . . The three
    USPI guards in the vehicle were killed instantaneously and the vehicle
    completely destroyed in the explosion. This attack took place 15 km NE from
    Lashkar Gah City on the main road leading to HWY 1.

USAID/Afghanistan is not receiving all reports of casualties and serious incidents
because, in the absence of security guidance and Mission-wide instructions, it has no
standard clause or provision in its agreements that would require such reports to be
provided to USAID/Afghanistan. Consequently, USAID/Afghanistan’s awards generally
do not require implementing partners to report serious incidents. Just 6 of 31 awards
reviewed included a requirement to report security incidents. All six were task orders
under the Afghanistan Infrastructure Rehabilitation Program, and only one of these
provided any detail about what should be reported. Implementing partners voluntarily
provide USAID/Afghanistan with such information because they see a benefit in sharing
and exchanging such reports.

Complicating the reporting, USAID/Afghanistan has two reporting needs: (1) reporting
casualties among contractor personnel and (2) reporting serious incidents involving PSC
personnel. USAID/Afghanistan’s lack of defined reporting requirements or a formal
reporting process caused the database of serious incidents involving PSC personnel to
be incomplete and therefore unreliable.       The following section discusses how
USAID/Afghanistan could expand the number of reports it receives and improve its
internal process for handling them.

3
  The types of incidents statutorily required to be reported are set forth in Appendix III at Section
862(a)(2)(D) of the National Defense Authorization Act for Fiscal Year 2008, as amended.


                                                                                                   6
USAID/Afghanistan’s Database
of Serious Incidents Is
Incomplete and Unreliable

  Summary. Section 862(a)(2)(D) of NDAA FY08 requires implementing regulation
  to establish a process under which PSCs are required to report all specified
  security incidents. Similarly, the Government Accountability Office has requested
  that USAID/Afghanistan share information on its implementing partners’ casualties.
  Not all of USAID/Afghanistan’s partners provide information on serious incidents
  and casualties because, in the absence of preemptive Mission-wide instructions,
  USAID/Afghanistan has neither a standard clause in its contracts nor a standard
  provision in its agreements that would define casualties and serious incidents and
  require that they be reported. Consequently, although many events have been
  voluntarily reported, much of the reporting does not meet USAID/Afghanistan’s
  information requirements. Many more incidents have not been reported.

The requirements set forth by NDAA FY 2008 section 862 and the Interim Final Rule
codified in the Code of Federal Regulations at 32 CFR 159, intended to ensure oversight
of all PSCs in Afghanistan, have not been implemented by non-DOD (Department of
Defense) PSCs in Afghanistan because the Chief of Mission has not issued
implementing instructions to non-DOD PSCs. As a result, USAID’s non-DOD PSCs and
their personnel are not reporting certain serious security incidents—in particular, persons
killed or injured as a result of their conduct––that they would be required to report if the
Interim Final Rule were implemented for non-DOD PSCs.                  Although not fully
implemented, the NDAA FY 2008 section nevertheless requires that a mechanism be
created by which Federal agencies will be notified of violent incidents involving PSCs.

The Government Accountability Office (GAO) has asked USAID/Afghanistan to track
casualties that have occurred in conjunction with USAID/Afghanistan’s projects. The
data required is not confined to casualties involving PSC personnel but covers all types
of casualties related to USAID/Afghanistan’s projects. USAID/Afghanistan’s Program
and Project Development Office (Program Office) has been tracking these incidents and
reporting them to GAO for several years.               Additionally, other Government
organizations—such as the Armed Contractor Oversight Division and the International
Security Assistance Force—as well as USAID/Afghanistan’s implementing partners seek
information on serious incidents and casualties for their own security awareness and
planning.

Some implementing partners provide USAID/Afghanistan with casualty and serious
incident reports, but some do not. Before USAID/Afghanistan established its Safety and
Security Office, the Program Office had compiled all casualty and serious incident
reports in a USAID/Afghanistan casualties report. The table below presents the
numbers of serious incident reports involving PSC personnel, extracted from the
USAID/Afghanistan casualties report.




                                                                                          7
                  Serious Incidents Reported to USAID/Afghanistan 

                            October 1, 2006–June 30, 2009 


                                                        Number of Serious Incident
     Types of Serious Incidents Involving
                                                          Reports Received by
     Private Security Contractors (PSCs)
                                                           USAID/Afghanistan
 Weapon is discharged by a PSC.                                      26
 PSC is killed or injured as a result of an attack.                 140
 Other persons are killed or injured, or property
                                                                      0
 is destroyed, as a result of PSC actions.
 PSC comes under attack or believes a weapon
                                                                     41
 was discharged.
 Active nonlethal countermeasures are
 employed by PSC personnel in response to a                           0
 perceived immediate threat.

However, when queried, a selection of 39 implementing partners provided information
about incidents that took place between October 1, 2006, and June 30, 2009. Our
review of the USAID/Afghanistan casualties report and information received from
implementing partners found a disparity between the two.            For example, the
implementing partners identified many more cases of weapons being discharged by
PSCs (71 versus 26) and PSCs coming under attack (92 versus 41) than were
accounted for in the USAID/Afghanistan casualties report. Because the 39 responses
do not represent all of USAID/Afghanistan’s implementing partners, the audit concluded
that this gap in data would be even greater if more partners had been asked about such
incidents.

We found additional disparities, beyond the total number of serious incidents
USAID/Afghanistan lists in its casualties report and implementing partners’ responses.
These differences further demonstrate that USAID/Afghanistan is not receiving all
reports of serious incidents involving a PSC. For example, a sample of 25 reports of
serious incidents obtained from one of USAID/Afghanistan’s implementing partners,
compared against the USAID/Afghanistan casualties report, found that only 3 of the 25
incidents (12 percent) appeared in USAID/Afghanistan’s report.

Therefore, USAID/Afghanistan is not receiving all reports of casualties and serious
incidents. As discussed in the Background section of this report, the contract clause
required by NDAA FY 2008 section 862(b) must include a requirement that the
contractor comply with the regulations prescribed under NDAA FY 2008 section 862(a).
Procedures for reporting serious incidents set forth by the Interim Final Rule at 32 CFR
159.6(a)(1)(v), however, have not yet been made applicable to USAID’s non-DOD PSCs
through Mission-wide instructions as required by 32 CFR 159.4(c) (see pages 18–20).

Of the 31 awards reviewed, only 5 required “daily security/incident reports,” and 1
required reporting on incidents that have a “substantive impact on progress/costs.”
Neither contract requirement is sufficiently specific to prompt reporting that meets either
serious incident or casualty reporting needs. USAID/Afghanistan receives information
on casualties and serious incidents only because implementing partners see a benefit in
sharing and exchanging such information. Additionally, some implementing partner


                                                                                         8
employees believe that this reporting will eventually become a requirement, so they have
already established a system to communicate incidents to USAID/Afghanistan.

Consequently, many events have been reported voluntarily, but much of the reporting
does not meet USAID/Afghanistan’s information requirements. Also, since statutory
reporting requirements have not been implemented at the Mission level, contractors can
censor or omit incident reports that might reflect poorly on them. Complete and reliable
reporting of security incidents is needed to ensure that security risks are promptly
addressed. Incomplete reporting hinders the coordination of information with other
Government organizations that would benefit from such information, such as the Armed
Contractor Oversight Division and the International Security Assistance Force. Finally,
the PSC oversight envisioned in NDAA FY 2008 is not achieved by such incomplete
reporting.

      Recommendation 1. We recommend that, in the absence of Mission-wide
      instructions, USAID/Afghanistan’s Director of Acquisition and Assistance include
      a clause or provision in all acquisition and assistance agreements to require the
      implementing partner to report information on casualties as well as serious
      incidents.


USAID/Afghanistan Should
Implement a Formal Incident
Reporting Process

     Summary.      A GAO report—Standards for Internal Control in the Federal
     Government—asserts that by defining key areas of authority and responsibility, and
     by establishing appropriate lines of reporting, organizational goals may be better
     achieved and operational problems minimized. In addition, 32 CFR 159.6 outlines
     the formal reporting process for PSCs. USAID/Afghanistan does not have a formal
     process for handling reports of serious incidents and casualties. This lack of a
     formal reporting process has led to discrepancies in information within
     USAID/Afghanistan and increases the risk that information will be lost or filtered by
     employees.

GAO’s 1999 report, Standards for Internal Control in the Federal Government, provides4
guidance to help agencies better achieve their objectives and minimize operational
problems. To attain such outcomes, the report notes that agency processes must (1)
clearly define key areas of authority and responsibility and (2) establish appropriate lines
of reporting. These actions create discipline and structure in a formal process that will
increase the success of USAID/Afghanistan objectives. The formal reporting process for
PSCs is outlined in 32 CFR 159.6.

USAID/Afghanistan does not have a formal process for receiving and processing reports
of serious incidents. Implementing partners who report casualties among their PSCs or
partners have no single point of contact at USAID/Afghanistan to whom they can direct
information, nor does USAID/Afghanistan have a clear way of internally disseminating

4
    GAO AIMD-00-21.3.1.


                                                                                             9
the information once USAID/Afghanistan personnel have been notified of a security
incident. When USAID/Afghanistan employees are notified of an incident, they may not
know who should receive such reports. Reports are variously sent directly or through a
supervisor to the Safety and Security Office, the Embassy’s Regional Security Office,
and/or the Program Office. In summary, USAID/Afghanistan’s internal reporting process
lacks a clear line for reporting incidents and a designated office responsible for receiving
such information. The following figure depicts the current reporting process.

              USAID/Afghanistan’s Serious Incident Reporting Process




         Serious                Implementing                             Implementing
         incident                 partner’s                                partner’s
                             Security Department                       program manager




                                                                             USAID
                                    USAID                              contracting officer’s
                              Safety and Security                           technical
                                     Office                               representative




             Other            State Department        USAID                  USAID
          implementing        Regional Security     management            Program Office
            partners                Office




When the Safety and Security Office receives information about serious incidents, its
personnel provide it to three groups—the State Department Regional Security Office,
USAID management, and other USAID/Afghanistan implementing partners. Information
on security incidents is sent to other implementing partners not only to make them aware
of events in the field but also to further encourage them to report such incidents to
USAID/Afghanistan.

USAID/Afghanistan has not devised or implemented a formal process of reporting
serious incidents because of a perception that it already has a functioning informal
reporting process in place. However, the lack of a formal process has contributed to
discrepancies in information within the two offices that need the information. Also, with
no formal process, the risk increases that information will be lost between
USAID/Afghanistan employees or that employees will filter out or disregard vital
information they deem not serious enough to report. Without a formal process,
USAID/Afghanistan cannot effectively gather, analyze, and disseminate information on
serious incidents taking place throughout Afghanistan.


                                                                                               10
   Recommendation 2. We recommend that, in the absence of Mission-wide
   instructions, USAID/Afghanistan devise and implement a formal process,
   consistent with standards specified in 32 CFR 159.6, for its employees to forward
   reports of serious incidents and casualties to a designated office that will collect
   and coordinate the reports.


Has USAID/Afghanistan ensured that its implementing partners
subcontracted with responsible private security firms?
USAID/Afghanistan’s oversight of private security firms contracted by its implementing
partners has not ensured that those contractors employ only responsible private security
firms, because USAID/Afghanistan has provided only limited oversight and almost no
direction relative to standards and requirements for security.                      Indeed,
USAID/Afghanistan contracting officials were not aware of every private security firm
with which its prime implementing partners had subcontracted. USAID/Afghanistan’s
practice has been to delegate responsibility and oversight for security to its implementing
partners. Accordingly, inasmuch as responsible private security firms have been
subcontracted, this practice has resulted from the efforts of the PSC subcontractors and
implementing partners to institute processes for personnel and weapons accountability,
rules of engagement, procedures for movement coordination, and vetting of armed
personnel.

USAID/Afghanistan did initiate some efforts to provide oversight and direction for
contractors that provide security to its implementing partners, however. For example, in
July 2009, USAID/Afghanistan established an office to advise its Contracting Office on
safety and security issues and assist in collecting and disseminating incident and threat
information. The Safety and Security Office also serves as USAID/Afghanistan’s liaison
with the Embassy’s Regional Security Office. The Embassy has detailed an assistant
regional security officer to the Safety and Security Office to provide advice and serve as
a direct link with Embassy security experts.

Additionally, USAID/Afghanistan’s Contracting Office has provided some oversight. For
example, the Contracting Office made security plans a deliverable in just under half of
the 31 contracts reviewed by the audit. In a few cases, USAID/Afghanistan even
provided general stipulations about elements that the implementing partner’s security
plan should include, such as “providing for adequate requirements for protecting contract
personnel” or ensuring that security complies with “applicable United States Government
regulations.” The office also provided consent to subcontract for some security firms
contracted to USAID/Afghanistan’s implementing partners. In a few exceptional
instances, USAID/Afghanistan specified security requirements in award provisions.

However, USAID/Afghanistan did not provide such oversight in more than half of the
contracts reviewed by the audit. Rather than providing oversight, USAID/Afghanistan
typically delegated security responsibilities to its implementing partners. The following
excerpt from a USAID/Afghanistan contract dated February 2007 is instructive:

   Security for the Contractor’s personnel and offices is the responsibility of the 

   Contractor. The Contractor shall assess the security situation in Afghanistan and 




                                                                                          11
    particularly in the provinces targeted by the program, and institute appropriate
    measures.

Such contract language distances USAID/Afghanistan from bearing responsibility for the
security services it funds. The paradigm by which USAID/Afghanistan provides for the
security of implementing partners that carry out its programs limits USAID/Afghanistan’s
oversight of security subcontractors. Notably, USAID/Afghanistan lacks privity of
contract5 with the subcontracted security providers. By designing its awards so that
security is the responsibility of implementing partners, USAID/Afghanistan places
oversight and accountability of PSCs in the hands of others, not the U.S. Government.
Such contract language shifts responsibility for preventing the recurrence of serious
incidents and their investigation from the U.S. Government to its implementing partners,
including lower-tier implementing partners, and their contracted security providers. This
practice creates risks for the Agency and is inconsistent with the detailed regulatory and
contract clause requirements for Government oversight of PSCs required by NDAA FY
2008 section 862.

No discussion of whether USAID/Afghanistan had ensured that its implementing
partners’ PSCs are responsible would be complete without mention of the fraud
perpetrated by one security contractor. In September 2009, the co-owners of that
security company pleaded guilty to contract fraud related to activities involving a major
USAID infrastructure program in Afghanistan. During the period October 1, 2006,
through June 30, 2009, the company billed almost $39 million for security costs. Plea
agreements with the co-owners required them to forfeit $3 million in proceeds that could
be traced to fraud. The co-owners and the company have been suspended from
participating in any new Federal awards.

Another case casts doubt on efforts to ensure that the security subcontractors protecting
USAID/Afghanistan’s implementing partners are responsible. In November 2009, a
security coordinator for an implementing partner for USAID/Afghanistan’s $1.4 billion
Afghanistan Infrastructure Rehabilitation Project pleaded guilty for his role in a scheme
to solicit kickbacks. He admitted that he had conspired to solicit kickbacks from private
security vendors in return for favorable treatment in the award of subcontracts.

Accordingly, to better meet congressional intent regarding the regulation of contractors
performing private security functions and to effect a de facto shift of responsibility for the
oversight of subcontracted security back into U.S. Government hands,
USAID/Afghanistan should do more to oversee the subcontracted PSCs it funds.
Specifically, the audit found the following areas where improvements should be made:

•	 USAID/Afghanistan did not always ensure that PSCs were licensed with the host
   government.
•	 USAID/Afghanistan did not always provide consent for implementing partners to
   subcontract for security services—and did not know whether proposed
   subcontractors were responsible, whether the price was reasonable, or whether the
   subcontract was appropriate for the risks involved.



5
 “Privity of contract” is defined by Black’s Law Dictionary as “that connection or relationship which exists
between two or more contracting parties.”


                                                                                                        12
•	 USAID/Afghanistan did not include a standard Federal Acquisition Regulation clause
   (FAR 52.255-19) on security-related standards in any of its contracts.
•	 USAID/Afghanistan did not develop detailed guidance on matters such as the use of
   deadly force, personnel and weapons accountability, and the investigation of
   incidents.

These topics are discussed below, along with recommendations to ensure better
oversight of PSCs.


USAID/Afghanistan-Funded Security
Contractors Must Comply With
Afghan Licensing Requirements

  Summary. Federal contractors must comply with applicable laws and regulations.
  However, two of USAID/Afghanistan’s implementing partners reported having
  charged a total of almost $3 million for the services of PSCs that were not licensed
  with the Islamic Republic of Afghanistan. The partners contracted with unlicensed
  contractors because of confusion about changes to Afghan laws. Use of
  unlicensed firms creates risks for USAID/Afghanistan.

Generally, U.S. Government contractors must comply with applicable laws and
regulations of host countries. A guide issued by the Islamic Republic of Afghanistan’s
Ministry of Interior at the end of FY 2007 states that PSCs must be licensed by the
Afghan Government. The guide notes that the Afghan Government cannot allow any
gaps in assuring the Afghan people that illegal armed groups will not re-emerge as
PSCs. The guide further emphasizes that “as a conflict-torn country, Afghanistan cannot
afford to contend with anything less than strict regulations on the establishment and
operation of private security companies.”

Nevertheless, two of USAID/Afghanistan’s implementing partners reported having
charged USAID/Afghanistan awards for the services of PSCs that were not licensed by
the Government of the Islamic Republic of Afghanistan. Charges for services of the two
firms commenced after FY 2007. The table below identifies the unlicensed PSCs and
provides the amounts and awards charged.

                 Amounts Charged to USAID/Afghanistan Awards
                             for Unlicensed Firms


     Unlicensed Private                                         Amount Charged
                                    Award Charged
       Security Firm                                                 ($)
   Business Solutions, Inc.    306-M-00-05-00516-001                   25,600
     Greystone Limited         306-A-00-08-00529-00                 2,914,940
           Total                                                    2,940,540

Changes in 2007 to the Afghan Ministry of Interior’s regulations regarding licensing
caused confusion about the implications of the new Afghan Government’s regulations.


                                                                                         13
The use of unlicensed security firms undermines Afghan law and eliminates the
protections provided by the licensing process. Such unregulated firms may have
criminal connections or may be irresponsible in other ways. These circumstances put
USAID/Afghanistan at risk.

   Recommendation 3. We recommend that USAID/Afghanistan’s Director of
   Acquisition and Assistance provide written notification to the implementing
   partners responsible for the two awards (detailed in the table on page 13)
   directing them to use only private security contractors licensed by the
   Government of the Islamic Republic of Afghanistan.


Contracting Officers Should
Provide or Deny Consent to
Security Subcontracts

  Summary. A Federal Acquisition Regulation provision typically applicable in
  Afghanistan requires that contracting officers responsible for providing or denying
  subcontracting consent review notifications and supporting data to ensure that the
  proposed subcontractors are responsible. Of 29 USAID/Afghanistan-funded PSCs,
  17 lacked documentation of consent. Such consent was not granted because the
  subcontracts were not the essential objective of those awards, and contracting
  officials overlooked them. Consequently, USAID/Afghanistan did not know all of its
  subcontracted private security firms, nor did USAID/Afghanistan know whether
  such firms were responsible, whether the subcontract prices were reasonable, or
  whether these subcontracts were appropriate for the risks involved.

The Federal Acquisition Regulation (FAR) governs, in large part, the process through
which the U.S. Government acquires goods and services. FAR 44.2 provides
requirements concerning the consent to subcontract. According to USAID/Afghanistan
contracting officers, USAID contractors are typically required to provide advance
notification under FAR 44.201-2 before forming a new subcontract. For example, if the
security situation changes after the initial award is made, and the implementing partner
seeks to add or change a subcontracted security provider, then consent is required.
According to FAR 44.202-2, the contracting officer responsible for providing or denying
consent reviews contractor notifications and supporting data to ensure that the proposed
subcontractor is responsible, the price is reasonable, and the subcontract is appropriate
for the risks involved, consistent with current policy, and in accordance with sound
business judgment.

USAID/Afghanistan’s contracting officers did not provide consent to subcontract in every
case in which a subcontracted security firm was added or changed, nor were they even
aware of all of the implementing partners’ subcontracted security firms. Broadly
speaking, USAID/Afghanistan reported that its prime implementing partners had used
just 14 PSCs. Of these 14, only 11 proved to be subcontracted to prime implementing
partners. Three did not have a subcontract, were not a security company, or were
already counted but mislabeled. However, 39 implementing partners reported that they



                                                                                        14
had subcontracted with 21 different                       PSCs—twice        the    number       of   which
USAID/Afghanistan officials were aware.6

In reviewing 17 of USAID/Afghanistan’s contracts, the audit identified 31 separate
subcontracts with private security firms, 29 of which required consent because a PSC
had been added or changed after the initial award. The 17 contracts shown in the table
below contain no evidence that USAID/Afghanistan’s contracting officer had granted
consent to the implementing partner to subcontract a PSC.

                               Private Security Firms for Which 

                            Subcontracting Consent Was Not Given 



                                                                                        Security
                    Implementing Partner                    Award Number
                                                                                      Subcontractor

    1.            Development Alternative Inc.             DFD-I-00-05-00250-08              USPI
    2.          Creative Associates International          306-M-00-06-00508-06       Kroll/GardaWorld
    3.      Aircraft Charter Solutions (Norse Air) Inc.                               Global Strategies
                                                           306-C-00-04-00558-07
                                                                                            Group
    4.    Deloitte Consulting (previously BearingPoint)     GEG-I-00-04-0004-00            RONCO
    5.    Deloitte Consulting (previously BearingPoint)     GEG-I-00-04-0004-00              ASG
    6.    Deloitte Consulting (previously BearingPoint)     GEG-I-00-04-0004-00         GardaWorld
    7.    Deloitte Consulting (previously BearingPoint)     GEG-I-00-04-0004-00         Watan Group
    8.    Deloitte Consulting (previously BearingPoint)                               Global Strategies
                                                           306-C-00-07-00508-09
                                                                                            Group
    9.    Deloitte Consulting (previously BearingPoint)    306-C-00-07-00508-09            RONCO
    10.   Deloitte Consulting (previously BearingPoint)    306-C-00-07-00508-09             AEGIS
    11.             Chemonics International                306-M-00-05-00516-00      Business Solutions
    12.             Chemonics International                306-M-00-05-00516-00              USPI
    13.             Chemonics International                306-C-00-07-00501-00         Hart Security
    14.                     ECODIT                           EPP-I-02-06-00010               TOR
    15.                       SUNY                         DFD-I-801-04-00128-10             USPI
    16.                       SUNY                         DFD-I-801-04-00128-10        Olive Group
    17.                       SUNY                         DFD-I-801-04-00128-10        Watan Group


The need to provide consent to the subcontracts was overlooked because security was
not the main purpose of the prime contracts.

Without consent, USAID/Afghanistan is not aware of what subcontracted PSCs are
working for their implementing partners, whether the security companies are
responsible, or whether USAID/Afghanistan is receiving a good value for the amount of
funds expended.

     Recommendation 4. We recommend that USAID/Afghanistan’s Director of
     Acquisition and Assistance require that the implementing partners—to which the
     17 private security companies (identified in the audit report) have been
     subcontracted—provide what would customarily be advance notification to
     USAID/Afghanistan, so that consent to subcontract may be considered and
     granted or refused.
6
  The regional security officer in Kabul requested on November 22, 2009, that all agencies and sections
under Chief of Mission authority identify, by name, all PSCs “they are contracting or subcontracting with, or
that are contracted or subcontracted by any of their prime contractors, implementing partners, or grantees.”


                                                                                                          15
   Recommendation 5. We recommend that USAID/Afghanistan’s Director of
   Acquisition and Assistance issue written guidance to existing implementing
   partners and the office’s contracting officers, reminding them of the requirements
   of Federal Acquisition Regulation part 44.2.


USAID/Afghanistan Should Use
Existing Contract Clause To
Impose Some Security Standards

  Summary. Federal Acquisition Regulation clause 52.225-19, which relates to
  some of NDAA FY08 section 862(b)’s contract clause requirements for PSCs, must
  be included in all of USAID/Afghanistan’s acquisition awards issued since March
  2008. None of 31 USAID/Afghanistan contracts reviewed included the clause,
  because most were made prior to March 2008 and contracting officers did not see
  the need to amend existing awards. Without the clause, USAID/Afghanistan’s
  contractors and the PSCs with which they subcontract are left with little or no
  guidance and few enforceable requirements for contractor personnel performing
  security functions.

Effective March 2008, Federal Acquisition Regulation (FAR) Clause 52.225-19,
“Contractor Personnel in a Designated Operational Area or Supporting a Diplomatic or
Consular Mission Outside the United States,” must be included in contracts that will
require contractor personnel to perform outside the United States in support of a
diplomatic mission designated as a danger-pay post. Because USAID/Afghanistan is
part of such a mission, the clause must be included in all of USAID/Afghanistan’s
acquisition awards issued since March 2008. The FAR does not require inclusion of the
clause in awards made prior to that date.

FAR clause 52.225-19, as prescribed in FAR 25.301-4, is the only standard contract
clause applicable to USAID’s acquisition awards that our audit identified as imposing
security-related requirements on PSCs and their personnel in Afghanistan. The clause
provides general requirements related to security. For example, the clause authorizes
the use of deadly force under specified circumstances and requires contractor
compliance with all applicable laws, treaties, and U.S. regulations, directives,
instructions, policies, and procedures. In a few cases, it provides specific requirements
applicable to security contractors. For example, the clause prohibits PSC personnel
from wearing military clothing, unless specifically authorized by the combatant
commander. The clause notes that, if military clothing is authorized, “contractor
personnel must wear distinctive patches, armbands, nametags, or headgear, in order to
be distinguishable from military personnel.” The clause also specifies that contractors
must be familiar with host country laws and comply with them. Moreover, the clause
requires that the substance of the clause be incorporated in all subcontracts that require
subcontractor personnel to perform outside the United States during specified operations
and circumstances, including that of supporting a diplomatic mission designated by the
Department of State as a danger-pay post.




                                                                                        16
As discussed in the Background section, NDAA FY 2008 section 862(b) requires that the
FAR be revised to require insertion into each covered contract of a clause containing
specified oversight requirements, including a requirement that the contractor comply with
the regulations prescribed under section 862(a). Although FAR clause 52.225-19
touches on many of the topics presented in NDAA FY 2008 section 862(b), it does not
meet the specific requirements of section 862(b) and it provides few details. For
example, the clause is silent on the matters of incident reporting and investigation. Also,
the clause provides limited guidance on the use of deadly force. It says deadly force
may be used in “self-defense” and “when it reasonably appears necessary” to protect
assets and people.

Significantly, an OIG audit report7 noted that USAID/Iraq had ensured that all of its
contracts with subcontracted PSCs either contained the clause or had been amended to
include it. However, none of 31 USAID/Afghanistan acquisition agreements with an
identified subcontracted PSC included the FAR clause. Of these, four were issued in
March 2008 or later. Some of the 31 awards included provisions related to security, but
the scope of those provisions varied significantly from one award to another; most
awards either were silent on security matters or included language purporting to place
primary responsibility for security on the implementing partner. The 27 awards issued
before March 2008 contained no specified requirement that the clause be added in
existing awards. Additionally, USAID/Afghanistan officials saw no need to include the
clause in the older awards, because, as discussed below, guidance referenced in the
clause had not yet been issued.

Without the clause in their contracts, USAID/Afghanistan’s implementing partners and
the PSCs with which they subcontract are left with little or no guidance and few
enforceable requirements for contractor personnel performing security functions. This
vacuum of applicable security guidance does not satisfy congressional intent that
personnel performing private security functions under contracts in Afghanistan should be
regulated.

Inclusion of the FAR clause in USAID/Afghanistan’s contracts would help in closing the
gaps between the level of oversight of PSCs in Iraq and Afghanistan and in more fully
meeting congressional intent for the regulation of PSCs. However, adding the clause is
not sufficient in and of itself. The FAR clause refers repeatedly to “Chief of Mission
guidance,” which has been issued for Iraq but not for Afghanistan. This guidance is
critical for fulfilling the requirements of section 862 of NDAA FY 2008. For example, the
act requires that regulations be prescribed to account for weapons. The FAR clause
requires that contractors “adhere to all guidance and orders issued by the Combatant
Commander or the Chief of Mission regarding possession, use, safety, and
accountability of weapons and ammunition.” Without Mission-wide instructions, the FAR
clause is not fully effective in regulating PSCs (see the subsequent finding on pages 18–
20).

    Recommendation 6. We recommend that USAID/Afghanistan’s contracting
    officer add Federal Acquisition Regulation Clause 52.225-19, “Contractor
    Personnel in a Designated Operational Area or Supporting a Diplomatic or


7
 Audit Report No. E-267-09-002-P, March 4, 2009, Audit of USAID/Iraq’s Oversight of Private Security
Contractors in Iraq.


                                                                                                 17
   Consular Mission Outside the United States,” to all its existing acquisition awards
   and issue guidance to include the clause in future awards.

Formal Security Instructions
Are Needed

  Summary. Despite congressional interest and the availability of policies and
  procedures for contracted security services in Iraq, USAID/Afghanistan’s
  contracting and agreement officers lack similar guidance applicable to Afghanistan.
  Without guidance, USAID/Afghanistan’s contracts and grants will continue to avoid
  statutory and regulatory requirements for PSC oversight, and USAID/Afghanistan-
  funded security firms will devise their own standards.

Congress has expressed continuing interest in the role and regulation of PSCs in
Afghanistan and Iraq.     The Senate Armed Services Committee conducted an
investigation in 2009 that examined the role of USAID’s subcontracted PSCs in
Afghanistan and Iraq.     Further demonstrating such interest, Congress passed
section 862 of NDAA FY 2008, described in the Background section of this report, and
Congress amended it in FY 2009 and 2010 to strengthen its oversight of PSCs in Iraq
and Afghanistan.

In Iraq, policies and procedures were provided through Mission-wide instructions. In
May 2008, the Chief of Mission in Iraq issued a policy directive on armed PSCs in Iraq.
That directive provided PSCs in Iraq with requirements that are mandatory for PSCs
working under “a contract (at any tier) or grant” for USAID or any agency under Chief of
Mission authority. The directive addressed such matters as rules for the use of force,
permissible weapons, ammunition, vehicles, and uniforms, movement coordination, and
reporting and investigation of serious incidents.

Additionally, in April 2009, the Director of USAID/Washington’s Office of Acquisition and
Assistance issued an acquisition and assistance policy directive that provided an
assistance (grant) provision for use in agreements involving activities in Iraq. The
provision required the use of a database for contract and contractor personnel
information. Significantly, the provision required that PSCs comply with Chief of Mission
guidance. A requirement for compliance with Chief of Mission guidance is also included
in FAR clause 52.225-19. For Iraq, both the assistance provision and the FAR clause
link USAID awards to Mission-wide instructions.

Despite congressional interest and the issuance of specific policies and procedures for
contracted security services in Iraq, USAID/Afghanistan’s contracting and agreement
officers have no similar Mission-wide instruction for the PSCs funded by
USAID/Afghanistan. USAID/Afghanistan has no standard clause relative to the provision
of security services to include in its assistance awards. Even if USAID/Afghanistan were
to consistently insert FAR clause 52.225-19 as required, that clause’s requirement that
contractors comply with applicable regulations would be of little value with respect to the
statutory and regulatory scheme for PSC oversight mandated by NDAA FY 2008
section 862, given that the scheme has not been implemented for non-DOD PSCs in
Afghanistan until the Chief of Mission issues instructions under 32 CFR 159.4(c).



                                                                                         18
Of the 59 awards that USAID/Afghanistan’s Office of Acquisition and Assistance
identified as having subcontracted private security, 20 were assistance awards.
Consequently, about a third of USAID/Afghanistan’s awards with subcontracted security
have no standard security requirements. As mentioned previously, the one standard
clause for contracts, FAR clause 52.225-19, imposes some requirements on PSCs, but it
refers repeatedly to guidance that has not yet been issued.

Accordingly, USAID/Afghanistan awards typically are silent on requirements for
subcontracted private security services, or they specify that security is the implementing
partner’s responsibility. The following language from a USAID/Afghanistan award
illustrates this point:

    There are no minimal operational standards for security to which the

    contractor must adhere. The Contractor shall develop and prudently manage

    a security program for its personnel and other resources which facilitates safe 

    and successful accomplishment of work. 


A Mission-wide policy directive on armed PSCs for Afghanistan has been drafted but has
not yet been issued. The regional security officer explained that conflicts between
Afghan law and policies of the State Department’s Bureau of Diplomatic Security
regarding the firing of warning shots have stalled the issuance of the policy directive.

Furthermore, although section 862 of the NDAA FY 2008 and its implementing Interim
Final Rule at 32 CFR 159 are intended to ensure oversight of all PSCs in Afghanistan,
they have not been implemented for non-DOD PSCs because the Mission has not
issued implementing instructions. The Interim Final Rule, promulgated by the Secretary
of Defense in coordination with the Secretary of State, requires that the subordinate
commanders within a geographic combatant command (in this case, Central Command)
be responsible for developing and issuing procedures implementing the requirements of
NDAA FY 2008 section 862 “as warranted by the situation, operation, and environment,
in consultation with the relevant Chief of Mission, in designated areas of combat
operations.” The Interim Final Rule also provides, at 32 CFR 159.4(c):

    The relevant Chief of Mission will be responsible for developing and issuing

    implementing instructions for non-DoD PSCs and their personnel consistent 

    with the standards set forth by the geographic Combatant Commander [and] 

    has the option to instruct non DoD PSCs and their personnel to follow the 

    guidance and procedures developed by the Geographic Combatant 

    Commander and/or Subordinate Commander.8


In the absence of Mission-wide guidance, USAID/Afghanistan’s contracts and grants will
continue to avoid providing oversight of and direction to PSCs. Such a practice is
contrary to the intent that Congress made clear in NDAA FY 2008. More to the point, in
the absence of stipulated policies and procedures, USAID/Afghanistan-funded PSCs will
continue to devise their own standards and will continue to be self-regulating.



8
  According to DOD’s designated contact for the Interim Final Rule, in February 2009, U.S. Forces
Afghanistan (the subordinate commander) issued Operational Order 09-03, which contains detailed
procedures implementing NDAA FY 2008’s PSC oversight requirements in Afghanistan.


                                                                                              19
Managers at four USAID/Afghanistan PSCs—which constitute more than 59 percent of
USAID/Afghanistan’s projected security expenditures for 2009—indicated that they have
been largely self-regulated and that they have devised their own standards. They drew
from prior military experience or their experience from security work in other countries,
and they worked in conjunction with the requirements of the USAID/Afghanistan
implementing partners with which they had contracted. Some noted other sources that
they had used in formulating their standards, such as Ministry of Interior standards,
standards imposed by DOD, and guidance from the security firm’s legal counsel, but in
no instance had USAID/Afghanistan played a significant role in that process. Indeed,
few reported having anything more than limited contact with USAID/Afghanistan.
Consequently, in the absence of USAID/Afghanistan-stipulated policies and procedures,
USAID/Afghanistan-funded PSCs will continue to devise their own standards for matters
such as the use of deadly force, security-related training, requirements for personnel and
weapons accountability, vetting of personnel, and investigation of incidents.

In a further illustration of the consequences of this absence of guidance,
USAID/Afghanistan’s subcontracted security providers are not bound by agreement
terms to undergo an independent review or investigation of serious incidents. During the
period October 1, 2006, through June 30, 2009, 314 people working on
USAID/Afghanistan’s projects were reported killed or injured. However, only one
implementing partner reported having performed any investigations into the reported
incidents. All of the investigations reported were conducted by the PSC’s own
employees, although two investigations also involved local police, who had responded to
the attack on the security contractor. None cited any independent investigation of
serious incidents reported, and none of the investigations found any fault with the
actions of the PSC’s personnel.

   Recommendation 7. We recommend that USAID/Afghanistan’s contracting
   officer request in writing that the Chief of Mission issue Mission-wide instructions
   for non-DOD PSCs and their personnel, as required by Interim Final Rule 32
   CFR 159.4(c), to either (1) implement standards set forth by the geographic
   combatant commander, or (2) instruct non-DOD PSCs and their personnel to
   follow the guidance and procedures developed by the geographic combatant
   commander and/or subordinate commander.

   Recommendation 8. We recommend that, in the absence of Mission-wide
   instructions, USAID/Afghanistan’s contracting officer request in writing that the
   Office of Acquisition and Assistance provide acquisition and assistance award
   language to regulate subcontracted private security services.


How much has been spent by USAID/Afghanistan’s
implementing partners for private security services, and has
there been effective oversight of these security costs?
USAID/Afghanistan’s prime implementing partners with identified PSCs reported that
they had charged their awards over $167 million for the costs of private security services
during the period October 1, 2006, through June 30, 2009. USAID/Afghanistan faced
challenges in providing effective oversight of security costs. No specific requirements
apply to this category of costs, and few requirements address the audit of subcontractor


                                                                                          20
costs. Recommended improvements to subcontracting consent (see recommendation 4
on page 15) will provide clarity about what security firms USAID/Afghanistan funds, thus
allowing for better opportunities for oversight. However, unless Federal and Agency
policies change, audit responsibility over such costs will continue to be dispersed among
various parties. This report includes no recommendations to change these policies.

In addition to the $167 million for the costs of private security services, implementing
partners charged $12 million during the same period for other security services and
security-related items, bringing the total for security services for the period to
$179 million. The charges for other security services covered the costs for security
equipment, physical security improvements, and security managers, guards, and
vehicles for implementing partners.

The $179 million in reported charges includes some but not all security costs. Private
security costs of second-tier9 or lower implementing partners may not have been
included in every case. For example, of the 36 prime implementing partners that
reported having charged security costs, 1 noted that 2 of its second-tier implementing
partners had incurred costs exceeding $7 million. Another identified over $3.5 million in
costs for one of its second-tier partners.10 Consequently, the total security costs of
lower-tier implementing partners could be significant.       According to a financial
management official at USAID/Afghanistan, such categories of costs at the lower tiers
are neither seen nor tracked by USAID/Afghanistan, because they are embedded in
prime implementing partner’s costs.

To put the reported amounts charged for security in perspective, PSC subcontractor
costs accounted on average for roughly 8.3 percent of award disbursements.
Subcontracting costs varied widely as a percentage of total disbursements. For
example, the award for one program spent 34 percent of total disbursements on
subcontracted private security firms, while another spent only 0.5 percent.

These percentages fall within USAID/Afghanistan’s expected range for security costs.
On the low end, one award that used a “low-profile approach” to security expended
1.9 percent of costs on PSC subcontractors. Another award estimated security costs to
be 6.5 percent of the award. USAID/Afghanistan officials noted that they expect costs to
run approximately 8 to 10 percent for areas that are deemed relatively safe, and that
security can go up to 20, 30, or even 50 percent in areas considered extremely
dangerous.

USAID/Afghanistan faced challenges in providing effective oversight of such security
costs. No specific requirements cover financial oversight of this category of costs, and
few requirements for USAID/Afghanistan address the audit of subcontractor costs.
Federal requirements governing the oversight of subcontractor costs precluded more
effective oversight of security costs charged to USAID/Afghanistan’s awards. For
example, (1) responsibility for such oversight is, in accordance with Federal Government
and Agency policy, dispersed among many parties; (2) USAID/Afghanistan personnel
have no accurate or comprehensive understanding of what security firms are providing


9
  “Second-tier implementing partners” are organizations with which prime implementing partners have made 

agreements to carry out USAID/Afghanistan’s programs.

10
   These additional reported costs are not included in the $179 million cited.
 



                                                                                                     21
security services; and (3) the total amount charged to USAID/Afghanistan awards for
security services is not known with any degree of precision.

In accordance with Federal Government and Agency policy, the responsibility for the
oversight of implementing partners’ subcontracted security costs rests among many
parties. According to Automated Directives System (ADS) chapter 591.3.6, USAID
missions have the right to audit a subrecipient if they identify a potential for waste or
fraud. However, Agency policy generally does not require USAID missions to perform
audits of subrecipients. Such responsibilities belong to prime implementing partners
and, in some cases, rely on risk assessments performed by an office in Washington.

Further complicating oversight, relevant policies vary depending on the differing natures
of USAID partners and differing types of subcontractors receiving funding. Applicable
Federal Government and Agency requirements generally focus on whether a recipient is
a for-profit or non-profit organization and whether the recipient is U.S.-based or foreign.
For example, ADS 591.3.1.2, which addresses U.S. for-profit organizations, requires that
“at least annually, M/OAA/CAS11 must assess risks associated with all U.S. for-profit
organizations performing under direct contracts, grants, cooperative agreements, or
cost-reimbursable host country contracts, and subcontracts to determine when these
organizations should be audited.” The chapter also notes that “USAID’s legal
relationship is with the prime recipient. Therefore, USAID is not responsible for directly
monitoring subrecipients.”

Even if USAID/Afghanistan were responsible for all such audits, USAID/Afghanistan
would not have an accurate or comprehensive understanding of the security firms that
provide services to its prime implementing partners. USAID/Afghanistan has even less
clarity concerning lower-tier implementing partners that have contracted their own
security. In the instance of one USAID program, a second level of implementing
organizations exists below USAID/Afghanistan’s prime implementing partner, and three
of the four second-tier implementing partners purchased their own security service. (See
diagram on following page.)

In addition, USAID/Afghanistan does not see all security costs charged to its awards
because security costs are not always separately identified. USAID/Afghanistan has
demonstrated, through its conduct of partner financial reviews, that it provides a certain
degree of oversight regarding the security costs of prime implementing partners.
However, as discussed previously, some implementing partners have made agreements
with others to carry out award objectives. These lower-level costs are not separately
identified by cost categories. These multiple levels of implementing partners, though
necessary to carry out the award objectives, can obscure the amounts of specific
categories of cost.




11
  M/OAA/CAS is the Contract Audit and Support Division within the Office of Acquisition and Assistance at
USAID’s Washington headquarters.


                                                                                                      22
                                  Multiple Tiers of PSC Subcontracting

                                                   USAID/
                                                 Afghanistan




                      Private                    Implementing
                      security                     partner            1st tier
                     contractor




      Implementing                Implementing         Implementing       Implementing
        partner 1                   partner 2            partner 3          partner 4
                                                                                         2nd tier


        Private                       Private             Private
        security                     security             security
       contractor                   contractor           contractor




In summary, recommended improvements to subcontractor consent (page 15) will create
increased clarity about what security firms USAID/Afghanistan funds and will provide
better opportunities for oversight. However, unless Federal and Agency policies change,
audit responsibility for specific categories of costs and subcontractor costs will continue
to be dispersed among various parties. This report makes no recommendations for such
policy changes because the scope of this audit was not sufficient to prompt changes to
Federal and Agency policies governing the financial oversight of subcontractor costs.
Also, new policies affecting a single category of costs—security costs—are not
warranted without a consideration of all categories of costs.




                                                                                                    23
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Afghanistan agreed, at least in principle, with all
recommendations, except recommendation 8.                  For that recommendation,
USAID/Afghanistan did agree that it can reinforce the forthcoming Chief of Mission
guidance and ensure that the guidance will be applicable to its assistance awards. The
Office of Inspector General reviewed USAID/Afghanistan’s response to the draft report
and determined that management decisions have been reached on recommendations 1,
2, 3, 4, 6, 7, and 8. Final action has been achieved on recommendation 5. The status of
each of the eight recommendations is discussed below.

USAID/Afghanistan management agreed with recommendation 1 and indicated that its
Office of Acquisition and Assistance is coordinating with its counterpart office at
USAID/Washington to obtain approval of standard provisions or clauses. When it
receives approval, USAID/Afghanistan plans to modify the acquisition and assistance
agreements as recommended. USAID/Afghanistan management expects to complete
these actions by August 31, 2010. We conclude that a management decision has been
reached on this recommendation.

USAID/Afghanistan management agreed with recommendation 2 and indicated that it
would formalize its process for collecting and coordinating the reporting of incidents to
the mission’s Office of Safety and Security. USAID/Afghanistan management expects to
complete these actions by May 31, 2010. Accordingly, we conclude that a management
decision has been reached on this recommendation.

USAID/Afghanistan management agreed with recommendation 3.                   Management
indicated that the cognizant contracting officers for the two agreements would provide
written notification to the implementing partners responsible for the two awards, directing
them to use only PSCs licensed by the Government of the Islamic Republic of
Afghanistan. USAID/Afghanistan management expects to complete these actions by
May 31, 2010. We, therefore, conclude that a management decision has been reached
on this recommendation.

USAID/Afghanistan management agreed with recommendation 4 and indicated that its
Office of Acquisition and Assistance will review the list of 17 implementing partners and
identify those on the list with unexpired contracts and subcontractors for which consent
is required and has not been granted. As recommended, these implementing partners
will be required to provide the customary advance notification to USAID/Afghanistan, so
that the cognizant contracting officer can provide consent to subcontract.
USAID/Afghanistan management indicated that it would use a status report to document
the completion of these activities. Management expects to complete these actions by
August 31, 2010. In light of the planned actions, we conclude that a management
decision has been reached on this recommendation.

USAID/Afghanistan management agreed with recommendation 5 and indicated that the
director of its Office of Acquisition and Assistance has issued written guidance. That


                                                                                        24
guidance was provided as an attachment to management’s comments and on April 26,
2010, was circulated in an e-mail to USAID/Afghanistan’s contracting officers for them to
forward to implementing partners. The guidance addresses the requirements of the
Federal Acquisition Regulation part 44.2 and notes that subcontractor approval extends
beyond PSCs and is required when subcontractors are added or replaced. Additionally,
the guidance cautions partners about the use of unauthorized PSCs and warns that such
actions could result in disallowed costs. We conclude that final action has been
achieved and that the recommendation should be closed.

USAID/Afghanistan management generally agreed with recommendation 6 and
indicated that its Office of Acquisition and Assistance will review its existing active
acquisition awards and ensure that Federal Acquisition Regulation Clause 52.225-19,
“Contractor Personnel in a Designated Operational Area or Supporting a Diplomatic or
Consular Mission Outside the United States,” is included in existing awards.
Additionally, the office’s director will issue guidance to its contracting officers directing
them to include the clause in all future awards. This matter was not addressed in the
Director’s April 26 message mentioned in conjunction with recommendation 5, but it will
be covered in separate guidance. USAID/Afghanistan management expects to issue the
guidance by August 31, 2010. Accordingly, we conclude that a management decision
has been reached on this recommendation.

USAID/Afghanistan management agreed “in principle” with recommendation 7 and
indicated that the USAID/Afghanistan Mission Director would write to the Ambassador to
request that he issue Mission-wide instructions for non-Department of Defense PSCs
and their personnel, as required by Interim Final Rule 32 CFR 159.4(c).
USAID/Afghanistan management expects to write to the Ambassador by May 15, 2010.
In light of USAID/Afghanistan’s actions, we conclude that a management decision has
been reached on this recommendation. Final action will be achieved when the letter is
issued to the Ambassador.

Although USAID/Afghanistan management did not agree with the wording of
recommendation 8, it has proposed an action to address the deficiencies noted in the
audit finding. USAID/Afghanistan’s Office of Acquisition and Assistance, in coordination
with USAID/Washington’s Office of Acquisition and Assistance, will develop clauses or
provisions to require assistance award partners in Afghanistan to comply with
forthcoming Chief of Mission guidance for security firms and personnel. In light of
USAID/Afghanistan’s proposed action, we conclude that a management decision has
been reached on this recommendation.             Final action will be achieved when
USAID/Afghanistan’s Office of Acquisition and Assistance completes development of
pertinent clauses or provisions to be used in acquisition and assistance agreements.




                                                                                          25
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY
 

Scope
The Regional Inspector General/Manila conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The audit had three objectives, which addressed (1) what types of serious security
incidents have been reported by security firms contracted by USAID/Afghanistan’s
implementing partners; (2) whether USAID/Afghanistan has ensured that its
implementing partners subcontracted with responsible private security firms; and (3) how
much has been spent by implementing partners for private security services, and
whether oversight of these costs has been effective.

The audit covers the period from October 1, 2006, through June 30, 2009, and
addresses security services of USAID/Afghanistan’s implementing partners. The audit
involved reviews of 39 implementing partners with acquisition and/or assistance awards
funding private security contractors (PSCs).              The audit did not include
USAID/Afghanistan’s one direct contract with a security firm. The audit sought to identify
all security costs charged by USAID/Afghanistan’s prime implementing partners during
that period. These costs do not include the security costs of second-tier and lower
implementing partners. The amounts identified by the audit could not be verified by
USAID/Afghanistan, and we relied entirely on responses from implementing partners for
this data. RIG/Manila’s resident audit staff in Afghanistan performed this audit in Kabul,
Afghanistan, at the offices of USAID/Afghanistan, offices of selected PSCs, and the U.S.
Embassy’s Regional Security Office, and in communication with USAID/Afghanistan’s
implementing partners. The audit relied on the following sources of evidence: reviews of
Agency policies, internal controls, prior audits, and contracts; interviews with and
information requests of implementing partners, PSCs, and USAID/Afghanistan officials;
and site visits to PSC sites. We performed audit fieldwork between July 27, 2009, and
November 23, 2009.

Methodology
To answer the audit’s three objectives, the audit relied on information requested from
(1) USAID/Afghanistan; (2) 40 implementing partners/projects that USAID/Afghanistan
identified as having subcontracted with PSCs and/or having incurred other security
costs; and (3) 14 private security firms that USAID/Afghanistan identified as
subcontracted by USAID/Afghanistan’s implementing partners. These requests obtained
information that was useful for the objectives, but the audit team obtained additional
evidence and insights through interviews with USAID/Afghanistan and Embassy officials,
reviews of implementing partner contracts, and other confirmations. We obtained
additional evidence on subcontracted private security firms from interviews with officials
from the four private security firms that had expended almost 60 percent of



                                                                                       26
USAID/Afghanistan projected security costs for 2009 and more than 50 percent of
USAID/Afghanistan-identified security subcontracts.

Specifically, to answer the first objective, we reviewed USAID/Afghanistan’s incident
reports and other documents that the audit team obtained directly from implementing
partners and subcontracted PSCs. We also considered how USAID/Afghanistan
encourages reporting and how it processes the reports it receives.

To answer the second objective, we evaluated contract and grant agreement
requirements specifically applicable to security. The audit team could then devise test
procedures used in reviewing 19 of 20 contracts and 12 task orders within 1 of the
awards. USAID/Afghanistan had identified the 20 contractors as having subcontracted
private security. As there were no such agreement requirements for assistance awards,
we reviewed only contract records. We also asked USAID/Afghanistan personnel about
other ways in which the USAID/Afghanistan might have ensured that responsible PSCs
are used by its implementing partners. Implementing partners and subcontracted PSCs
were similarly queried about any such efforts by USAID/Afghanistan.

To answer the first part of the third objective, we reviewed and calculated amounts billed
by 39 USAID/Afghanistan-identified implementing partners for security services. To
answer the second part of the objective, we evaluated oversight requirements and
reviewed financial oversight that USAID/Afghanistan and implementing partners had
performed.




                                                                                       27
                                                                             APPENDIX II 




MANAGEMENT COMMENTS
 



MEMORANDUM

TO:                   Bruce N. Boyer, Regional Inspector General/Manila

From:                 William M. Frej, Mission Director, USAID/Afghanistan /s/

DATE:                 May 3, 2010

SUBJECT:              Audit of USAID/Afghanistan’s Oversight of Private Security
                      Contractors in Afghanistan (Audit Report No. 5-306-10-00X-P)

REFERENCE:            BBoyer/WFrej memo dated March 22, 2010

Thank you for providing the Mission the opportunity to review the subject draft audit
report. We would like to express our gratitude for the professionalism, flexibility,
resourcefulness, and hard work exhibited by the audit team. We are providing
confirmation of the actions that have been taken or are planned to be taken to address the
recommendations in the audit report.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS

Recommendation 1. We recommend that, in the absence of Mission-wide instructions,
USAID/Afghanistan’s Director of Acquisition and Assistance include a clause or
provision in all acquisition and assistance agreements to require the implementing
partner to report information on casualties as well as serious incidents.

The Mission agrees with this recommendation.

Actions To Be Taken:

USAID/Afghanistan’s Office of Acquisition and Assistance (USAID/Afghanistan’s
OAA) is coordinating additional reporting requirements with USAID/Washington’s
Management Bureau/OAA (M/OAA). The additional standard provisions or clauses in
agreements are subject to the Paperwork Reduction Act and require approval by OMB.
Upon approval of the standard provisions or clauses, USAID/Afghanistan’s OAA will
modify the acquisition and assistance agreements accordingly. The target date for
completion of these actions is August 31, 2010.


                                                                                        28
Based on the actions identified above, the Mission requests RIG/Manila concurrence that
a management decision has been reached and that this audit recommendation will be
deemed closed when OAA includes the clauses or provisions in all acquisition and
assistance agreements.

Recommendation No 2: We recommend that, in the absence of Mission-wide
instructions, USAID/Afghanistan devise and implement a formal process, consistent
with standards specified in 39 CFR 159.6, for its employees to forward reports of
serious incidents and casualties to a designated office that will collect and coordinate
the reports.

The Mission agrees with this recommendation.

Actions Taken:

In July 2009, the Mission established an in-house Office of Safety and Security to, among
other duties, coordinate the reporting of serious incidents and casualties. Serious
incidence reporting has increased as has general cooperation on security issues with the
implementing partners. The Safety and Security Offices collects and issues daily reports
on security incidents. While there is an extensive process in place and a designated office
to collect and coordinate reporting of incidents, the process has not been formalized in a
Mission Order. The Mission will formalize the process for employees to forward reports
of serious incidents and casualties to the designated office by May 31, 2010.

Based on the actions identified above, the Mission requests RIG/Manila concurrence that
a management decision has been reached and that this audit recommendation will be
deemed closed when the Mission formalizes the process in a Mission Notice.

Recommendation No 3: We recommend that USAID/Afghanistan’s Director of
Acquisition and Assistance provide written notification to the implementing partners
responsible for the two awards (detailed in the table on page 13) directing them to use
only private security contractors licensed by the Government of the Islamic Republic of
Afghanistan.

The Mission agrees with this recommendation.

Actions To Be Taken:

The Ministry of Interior’s list of approved security firms has been provided to the
cognizant Contracting Officers for the two agreements. The cognizant Contracting
Officers will provide written notification to the implementing partners responsible for the
two awards directing the partners only to use private security contractors licensed by the
Government of the Islamic Republic of Afghanistan. The target date for completion of
this action is May 31, 2010.



                                                                                        29
Based on the actions identified above, the Mission requests RIG/Manila concurrence that
a management decision has been reached and that this audit recommendation will be
deemed closed when the cognizant Contracting Officers provide written notification to
the implementing partners responsible for the two awards.

Recommendation No 4: We recommend that USAID/Afghanistan’s Director of
Acquisition and Assistance require that the implementing partners—to which the 17
private security companies (identified in the audit report) have been subcontracted—
provide what would customarily be advance notification to USAID/Afghanistan, so that
consent to subcontract may be considered and granted or refused

The Mission agrees with this recommendation.

Actions To Be Taken:

USAID/Afghanistan’s OAA will review the list of 17 implementing partners and identify
those partners on the list who’s contracts have not expired and who have not
subsequently received consent to subcontract. These implementing partners will be
required to provide what would customarily be advance notification to
USAID/Afghanistan, so that the cognizant Contracting Officer can provide consent to
subcontract. A status report of the 17 implementing partners detailed in the report
containing the status of their awards and approved consent to subcontract will be
prepared to document the completion of these activities by August 31, 2010.

Based on the actions identified above, the Mission requests RIG/Manila concurrence that
a management decision has been reached and that this audit recommendation will be
deemed closed when the Mission demonstrates consent to subcontract has been provided
to the remaining active contracts identified in the report.

Recommendation 5. We recommend that USAID/Afghanistan’s Director of Acquisition
and Assistance issue written guidance to existing implementing partners and the
office’s contracting officers, reminding them of the requirements of Federal
Acquisition Regulation part 44.2.

The Mission agrees with this recommendation.

Actions To Be Taken:

On April 25, 2010 USAID/Afghanistan’s OAA Director issued written guidance to the
existing implementing partners and the office’s Contracting Officers, reminding them of
the requirements of Federal Acquisition Regulation part 44.2.

Based on the actions identified above, the Mission requests RIG/Manila concurrence that
a management decision has been reached and that this audit recommendation is closed.
Please refer to Attachment 1 for a copy of the guidance.



                                                                                      30
Recommendation 6. We recommend that USAID/Afghanistan’s contracting officer add
Federal Acquisition Regulation Clause 52.225-19, “Contractor Personnel in a
Designated Operational Area or Supporting a Diplomatic or Consular Mission Outside
the United States,” to all its existing acquisition awards and issue guidance to include
the clause in future awards.

The Mission agrees with this recommendation, in general.

Actions To Be Taken:

USAID/Afghanistan’s OAA will review its existing active acquisition awards and ensure
the required clause is included in the awards. Additionally, the Director of
USAID/Afghanistan’s OAA will issue guidance to the Contracting Officers directing
them to include the clause in all future awards. The target date for completion is August
31, 2010.

Based on the actions identified above, the Mission requests RIG/Manila concurrence that
a management decision has been reached and that this audit recommendation will be
deemed closed when: 1) the USAID/Afghanistan Director of OAA makes a
determination that all contracts have the required clause included in the award, and 2) the
Director of USAID/Afghanistan’s OAA has issued guidance to the Contracting Officers.

Recommendation 7. We recommend that USAID/Afghanistan’s contracting officer
request in writing that the Chief of Mission issue Mission-wide instructions for non-
DOD PSCs and their personnel, as required by Interim Final Rule 32 CFR 159.4(c), to
either (1) implement standards set forth by the geographic combatant commander, or
(2) instruct non-DOD PSCs and their personnel to follow the guidance and procedures
developed by the geographic combatant commander and/or subordinate commander.

The Mission agrees in principle with the recommendation.

The Chief of Mission (COM) is aware of this issue and COM guidance on the use of
private security contractors has been prepared by the U.S. Embassy/Kabul Regional
Security office. The guidance is currently with the Department of State Legal Office in
Washington D.C. The USAID/Afghanistan Mission Director will formally write to the
Ambassador and express to the Ambassador the finding in this audit report by May 15,
2010.

Based on the above discussion, the Mission requests RIG/Manila’s concurrence that a
management decision has been reached and that this audit recommendation will be closed
when the Mission Director formally writes to the Ambassador.

Recommendation 8. We recommend that, in the absence of Mission-wide instructions,
USAID/Afghanistan’s contracting officer request in writing that the Office of




                                                                                         31
Acquisition and Assistance provide acquisition and assistance award language to
regulate subcontracted private security services.

The Mission does not agree with this recommendation as written. The Mission notes that
Chief of Mission standards for security firms and personnel are issued by the U.S.
Embassy/Kabul’s Regional Security Officer. USAID does not have the expertise or
authority to issue weapons standards, training and certification requirements, rules of
engagement, incident review and sanctioning for improper execution of duties. The
Mission is proposing alternative action which will address the deficiencies noted in the
audit finding.

Alternative Actions To Be Taken:

The Mission does agree that there is action USAID/Afghanistan can take to reinforcing
the forthcoming Chief of Mission guidance, ensuring the COM guidance will be
applicable to the Mission’s assistance awards. The finding highlights an important
disparity between assistance award provisions applicable to Iraq and Afghanistan. Unlike
Iraq, Afghanistan has no assistance award clause requiring partners to comply with Chief
of Mission guidance.

As indicated in our response to recommendation 1 (above), USAID/Afghanistan’s OAA
is coordinating additional provisions and clauses with USAID/Washington’s M/OAA and
that USAID/Afghanistan’s OAA will develop clauses or provisions that will require
assistance award partners to comply with Chief of Mission guidance. The target date for
completion of this action is August 31, 2010.

Based on the action identified above, the Mission requests RIG/Manila’s concurrence that
a management decision has been reached and that this audit recommendation will be
deemed closed when USAID/Afghanistan’s OAA completes the development of
pertinent clauses or provisions to be utilized in acquisition and assistance agreements.



Attachment: 1 – OAA Letter to Implementing Partners




                                                                                     32
                                                                                           APPENDIX III 




Key Statutory Requirements in
Sections 862 and 864 of the National
Defense Authorization Act for Fiscal
Year 2008, as Amended
Sec. 862. Contractors performing private security functions in areas of combat
operations.12

(a) Regulations on contractors performing private security functions.--

     (1) In general.—Not later than 120 days after the date of the enactment of this Act
     [Jan. 28, 2008], the Secretary of Defense, in coordination with the Secretary of State,
     shall prescribe regulations on the selection, training, equipping, and conduct of
     personnel performing private security functions under a covered contract in an area of
     combat operations.

     (2) Elements.—The regulations prescribed under subsection (a) shall, at a minimum,
     establish—

      (A) a process for registering, processing, accounting for, and keeping appropriate
      records of personnel performing private security functions in an area of combat
      operations;

      (B) a process for authorizing and accounting for weapons to be carried by, or
      available to be used by, personnel performing private security functions in an area of
      combat operations;

      (C) a process for the registration and identification of armored vehicles, helicopters,
      and other military vehicles operated by contractors performing private security
      functions in an area of combat operations;

      (D) A process under which contractors are required to report all incidents, and
      persons other than contractors are permitted to report incidents, in which—

      (i) a weapon is discharged by personnel performing private security functions in an
      area of combat operations;

      (ii) personnel performing private security functions in an area of combat operations
      are killed or injured;


12
  Public Law 110-181, div. A, title VIII, subtitle F, §§ 862 and 864, Jan. 28, 2008, 122 Stat. 254-259; as
amended by Public Law 110-417, div. A, title VIII, §§ 853, 854(a), (d), Oct. 14, 2008, 122 Stat. 4544; and
Public Law 111-84, div. A, title VIII, § 813(a) to (c), Oct. 28, 2009, 123 Stat. 2406. Codified at 10 U.S.C.
2302 note.


                                                                                                        33
 (iii) persons are killed or injured, or property is destroyed, as a result of conduct by
 contractor personnel;

 (iv) a weapon is discharged against personnel performing private security functions
 in an area of combat operations or personnel performing such functions believe a
 weapon was so discharged; or

 (v) active, non-lethal countermeasures (other than the discharge of a weapon) are
 employed by the personnel performing private security functions in an area of
 combat operations in response to a perceived immediate threat to such personnel;

 (E) A process for the independent review and, if practicable, investigation of—

 (i) incidents reported pursuant to subparagraph (D); and

 (ii) incidents of alleged misconduct by personnel performing private security
 functions in an area of combat operations;

 (F) requirements for qualification, training, screening (including, if practicable,
 through background checks), and security for personnel performing private security
 functions in an area of combat operations;

 (G) Guidance to the commanders of the combatant commands on the issuance of—

 (i) orders, directives, and instructions to contractors performing private security
 functions relating to equipment, force protection, security, health, safety, or relations
 and interaction with locals;

 (ii) predeployment training requirements for personnel performing private security
 functions in an area of combat operations, addressing the requirements of this
 section, resources and assistance available to contractor personnel, country
 information and cultural training, and guidance on working with host country
 nationals and military; and

 (iii) rules on the use of force for personnel performing private security functions in an
 area of combat operations;

 (H) a process by which a commander of a combatant command may request an
 action described in subsection (b)(3); and

 (I) a process by which the training requirements referred to in subparagraph (G)(ii)
 shall be implemented.

(3) Availability of orders, directives, and instructions.—The regulations prescribed
under subsection (a) shall include mechanisms to ensure the provision and availability
of the orders, directives, and instructions referred to in paragraph (2)(G)(i) to
contractors referred to in that paragraph, including through the maintenance of a single
location (including an Internet website, to the extent consistent with security
considerations) at or through which such contractors may access such orders,
directives, and instructions.

                                                                                       34
(b) Contract clause on contractors performing private security functions.—

 (1) Requirement under FAR.—Not later than 180 days after the date of the
 enactment of this Act [Jan. 28, 2008], the Federal Acquisition Regulation issued in
 accordance with section 25 of the Office of Federal Procurement Policy Act (41 U.S.C.
 421) shall be revised to require the insertion into each covered contract (or, in the case
 of a task order, the contract under which the task order is issued) of a contract clause
 addressing the selection, training, equipping, and conduct of personnel performing
 private security functions under such contract.

 (2) Clause requirement.—The contract clause required by paragraph (1) shall
 require, at a minimum, that the contractor concerned shall—

   (A) Comply with regulations prescribed under subsection (a) [of this note], including
   any revisions or updates to such regulations, and follow the procedures established
   in such regulations for—

   (i) registering, processing, accounting for, and keeping appropriate records of
   personnel performing private security functions in an area of combat operations;

   (ii) authorizing and accounting of weapons to be carried by, or available to be used
   by, personnel performing private security functions in an area of combat operations;

   (iii) registration and identification of armored vehicles, helicopters, and other military
   vehicles operated by contractors and subcontractors performing private security
   functions in an area of combat operations; and

   (iv) The reporting of incidents in which—

   (I) a weapon is discharged by personnel performing private security functions in an
   area of combat operations;

   (II) personnel performing private security functions in an area of combat operations
   are killed or injured; or

   (III) persons are killed or injured, or property is destroyed, as a result of conduct by
   contractor personnel;

   (B) Comply with and ensure that all personnel performing private security functions
   under such contract are briefed on and understand their obligation to act in
   accordance with—

   (i) qualification, training, screening (including, if practicable, through background
   checks), and security requirements established by the Secretary of Defense for
   personnel performing private security functions in an area of combat operations;

   (ii) applicable laws and regulations of the United States and the host country, and
   applicable treaties and international agreements, regarding the performance of the
   functions of the contractor;


                                                                                          35
   (iii) orders, directives, and instructions issued by the applicable commander of a
   combatant command relating to equipment, force protection, security, health, safety,
   or relations and interaction with locals; and

   (iv) rules on the use of force issued by the applicable commander of a combatant
   command for personnel performing private security functions in an area of combat
   operations; and

   (C) cooperate with any investigation conducted by the Department of Defense
   pursuant to subsection (a)(2)(E) by providing access to employees of the contractor
   and relevant information in the possession of the contractor regarding the incident
   concerned.

 (3) Noncompliance of personnel with clause.—The contracting officer for a covered
 contract may direct the contractor, at its own expense, to remove or replace any
 personnel performing private security functions in an area of combat operations who
 violate or fail to comply with applicable requirements of the clause required by this
 subsection. If the violation or failure to comply is a gross violation or failure or is
 repeated, the contract may be terminated for default.

 (4) Applicability.--The contract clause required by this subsection shall be included in
 all covered contracts awarded on or after the date that is 180 days after the date of the
 enactment of this Act [Jan. 28, 2008]. Federal agencies shall make best efforts to
 provide for the inclusion of the contract clause required by this subsection in covered
 contracts awarded before such date.

 (5) Inspector General report on pilot program on imposition of fines for
 noncompliance of personnel with clause.—Not later than March 30, 2008, the
 Inspector General of the Department of Defense shall […deleted for the purposes of
 this appendix]

(c) Areas of combat operations.—

 (1) Designation.—The Secretary of Defense shall designate the areas constituting an
 area of combat operations for purposes of this section by not later than 120 days after
 the date of the enactment of this Act [Jan. 28, 2008].

 (2) Particular areas.—Iraq and Afghanistan shall be included in the areas designated
 as an area of combat operations under paragraph (1).

 (3) Additional areas.—The Secretary may designate any additional area as an area
 constituting an area of combat operations for purposes of this section if the Secretary
 determines that the presence or potential of combat operations in such area warrants
 designation of such area as an area of combat operations for purposes of this section.

 (4) Modification or elimination of designation.—The Secretary may modify or cease
 the designation of an area under this subsection as an area of combat operations if the
 Secretary determines that combat operations are no longer ongoing in such area.

(d) Exception.—The requirements of this section shall not apply to contracts entered
into by elements of the intelligence community in support of intelligence activities.


                                                                                       36
Sec. 864. Definitions and other general provisions.

(a) Definitions.—In this subtitle [this note]:

 (1) Matters relating to contracting.--The term ‘matters relating to contracting’, with
 respect to contracts in Iraq and Afghanistan, means all matters relating to awarding,
 funding, managing, tracking, monitoring, and providing oversight to contracts and
 contractor personnel.

 (2) Contract in Iraq or Afghanistan.—The term ‘contract in Iraq or Afghanistan’
 means a contract with the Department of Defense, the Department of State, or the
 United States Agency for International Development, a subcontract at any tier issued
 under such a contract, a task order or delivery order at any tier issued under such a
 contract, a grant, or a cooperative agreement (including a contract, subcontract, task
 order, delivery order, grant, or cooperative agreement issued by another Government
 agency for the Department of Defense, the Department of State, or the United States
 Agency for International Development), if the contract, subcontract, task order, delivery
 order, grant, or cooperative agreement involves worked performed in Iraq or
 Afghanistan for a period longer than 30 days.

 (3) Covered contract.—The term ‘covered contract’ means—

   (A) a contract of a Federal agency for the performance of services in an area of
   combat operations, as designated by the Secretary of Defense under subsection (c)
   of section 862 [of this note];

   (B) a subcontract at any tier under such a contract;

   (C) a task order or delivery order issued under such a contract or subcontract;

   (D) a grant for the performance of services in an area of combat operations, as
   designated by the Secretary of Defense under subsection (c) of section 862 [of this
   note]; or

   (E) a cooperative agreement for the performance of services in such an area of
   combat operations.

 (4) Contractor.—The term ‘contractor’, with respect to a covered contract, means—

   (A) in the case of a covered contract that is a contract, subcontract, task order, or
   delivery order, the contractor or subcontractor carrying out the covered contract;

   (B) in the case of a covered contract that is a grant, the grantee; and

   (C) in the case of a covered contract that is a cooperative agreement, the recipient.




                                                                                       37
 (5) Contractor personnel.—The term ‘contractor personnel’ means any person
 performing work under contract for the Department of Defense, the Department of
 State, or the United States Agency for International Development, in Iraq or
 Afghanistan, including individuals and subcontractors at any tier.

 (6) Private security functions.—The term ‘private security functions’ means activities
 engaged in by a contractor under a covered contract as follows:

   (A) Guarding of personnel, facilities, or property of a Federal agency, the contractor
   or subcontractor, or a third party.

   (B) Any other activity for which personnel are required to carry weapons in the
   performance of their duties.

 (7) Relevant committees of Congress.—The term ‘relevant committees of Congress’
 means each of the following committees:

   (A) The Committees on Armed Services of the Senate and the House of
   Representatives.

   (B) The Committee on Homeland Security and Governmental Affairs of the Senate
   and the Committee on Oversight and Government Reform of the House of
   Representatives.

   (C) The Committee on Foreign Relations of the Senate and the Committee on
   Foreign Affairs of the House of Representatives.

   (D) For purposes of contracts relating to the National Foreign Intelligence Program,
   the Select Committee on Intelligence of the Senate and the Permanent Select
   Committee on Intelligence of the House of Representatives.

(b) Classified information.—Nothing in this subtitle [this note] shall be interpreted to
require the handling of classified information or information relating to intelligence
sources and methods in a manner inconsistent with any law, regulation, executive order,
or rule of the House of Representatives or of the Senate relating to the handling or
protection of such information.”




                                                                                      38
                                                           APPENDIX IV



Interim Final Rule Implementing
Section 862(a) of the National
Defense Authorization Act for
Fiscal Year 2008




                                               This part is of critical importance. It
DEPARTMENT OF DEFENSE                       is being published as an Interim Final
                                            Rule because there is insufficient policy
Office of the Secretary                     and guidance regulating the actions of
                                            DoD and other governmental PSCs and
32 CFR Part 159                             their movements in the operational area.
[DOD-200S-QS-0125IRIN 079O-AI3Sj            It will procedurally close existing gaps
                                            in the oversight of Private Security
Private Security Contractors (PSCs)         Contractors (PSCs), ensure compliance
Operating in Contingency Operations         with laws and regulations pertaining to
                                            Inherently Governmental functions, and
AGENCY: Office of the Under Secretary of    ensure proper performance by armed
Defense for Acquisition, Technology,         contractors. The expansion of troops in
and Logistics, DoD.                         Afghanistan will result in a
ACTION: Interim final rule.                  corresponding increase in the number of
                                             PSCs performing in that Area of
SUMMARY:   This part establishes policy,     Operations. This part is required to
assigns responsibilities and provides        ensure implementation of necessary
procedures for the regulation ofthe          guidance for all U.S.G. PSCs across the
selection, accountability, training,         CENTCOM area ofresponsibility.
equipping, and conduct of personnel          Further, the publication ofthis IFR is.
performing private security functions        required to meet the mandate of SectlOn
under a covered contract during              862 of the 2008 National Defense
contingency operations. It also assigns      Authorization Act. The Congress has
responsibilities and establishes             expressed continuing concern that
procedures for incident reporting, use of
and accountability for equipment, rules
for the use of force, and a process for
administrative action or the removal, as
appropriate, of PSCs and PSC personnel.
For the Department of Defense, this IFR
supplements DoD Instruction 3020.41,
"Contractor Personnel Authorized to
Accompany the U.S. Armed Forces,"
which provides guidance for all DoD
contractors operating in contingency
ope~ations.



                                                                                         39
                 Federal Register/Vol. 74, No. 136/Friday, July 17, 2009/Rules and Regulations                                   34691

regulations for the oversight of PSCs are
     (2) Create a serious inconsistency or      implications, as set forth in Executive
not yet in place.
                           otherwise interfere with an action taken     Order 13132. This rule does not have
DATES: This rule is effective July 17,
      or planned by another Agency;                substantial direct effects on:
2009. Comments must be received by
            (3) Materially alter the budgetary           (1) The States;
August 31, 2009.
                            impact of entitlements, grants, user fees,     (2) The relationship between the
ADDRESSES: You may submit comments,

                                             or loan programs, or the rights and          National Government and the States; or
                                             obligations of recipients thereof; or          (3) The distribution of power and
identified by docket number and/or RIN

                                               (4) Raise novel legal or policy issues     responsibilities among the various
number and title, by any of the

                                             arising out of legal mandates, the           levels of Government.
following methods:

   • Federal Rulemaking Portal: http://      President's priorities, or the principles    List of Subjects in 32 CFR Part 159
www.regulations.gov. Follow the              set forth in this Executive Order.
                                                                                             Contracts, Security measures.
instructions for submitting comments.        Public Law 104-121, "Congressional
   • Mail: Federal Docket Management         Review Act" (5 U.S.C. 801)                   • Accordingly 32 CFR Part 159 is added
System Office, 1160 Defense Pentagon,                                                     to read as follows:
Washington, DC 20301-1160.                     It has been determined that 32 CFR
   Instructions: All submissions received    part 159 is not a "major" rule under 5       PART 159-PRIVATE SECURITY
must include the agency name and             U.S.c. 801, enacted by Public Law 104­       CONTRACTORS OPERATING IN
docket number or Regulatory                  121, because it will not result in an        CONTINGENCY OPERATIONS
Information Number (RIN) for this            annual effect on the economy of $100
                                             million or more; a major increase in         Sec.
Federal Register document. The general                                                    159.1     Purpose.
policy for comments and other                costs or prices for consumers,               159.2     Applicability and scope.
submissions from members of the public       individual industries, Federal, State, or    159.3     Definitions.
is to make these submissions available       local government agencies, or                159.4     Policy.
for public viewing on the Internet at        geographic regions; or significant           159.5     Responsibilities.
http://www.regulations.gov as they are       adverse effects on competition,              159.6     Procedures.
received without change, including any       employment, investment, productivity,          Authority: Public Law 110-181; Pub. L.
personal identifiers or contact              innovation, or on the ability of United      110--417.
information.                                 States-based enterprises to compete
                                             with foreign-based enterprises in            §159.1.     Purpose.
FOR FURTHER INFORMATION CONTACT:             domestic and export markets.                   This part establishes policy, assigns
Jeffrey Taylor, (703) 692-3032.                                                           responsibilities and provides
SUPPLEMENTARY INFORMATION: This
                                             Section 202, Public Law 104-4,               procedures for the regulation of the
Interim Final Rule is required to meet       "Unfunded Mandates Reform Act"               selection, accountability, training,
the mandate of Section 862 of the FY           It has been certified that 32 CFR part     equipping, and conduct of personnel
2008 National Defense Authorization          159 does not contain a Federal mandate       performing private security functions
Act. Section 862 of the 2008 NDAA lays       that may result in expenditure by State,     under a covered contract. It also assigns
out two requirements:                        local and tribal governments, in             responsibilities and establishes
   (i) That the Secretary of Defense, in     aggregate, or by the private sector, of      procedures for incident reporting, use of
coordination with the Secretary of State     $100 million or more in anyone year.         and accountability for equipment, rules
shall prescribe regulations on the                                                        for the use of force, and a process for
selection, training, equipping, and          Public Law 96-354, "Regulatory
                                             Flexibility Act" (5 U.S.C. 601)              administrative action or the removal, as
conduct of personnel performing private                                                   appropriate, of PSCs and PSC personnel.
security functions under a covered             It has been certified that 32 CFR part
contract in an area of combat operations;    159 is not subject to the Regulatory         §159.2.     Applicability and scope.
and                                          Flexibility Act (5 U.S.c. 601) because it      This part:
   (ii) That the FAR shall be revised to     would not, if promulgated, have a              (a) Applies to:
require the insertion into each covered      significant economic impact on a               (1) The Office of the Secretary of
contract of a contract clause addressing     substantial number of small entities.        Defense, the Military Departments, the
the selection, training, equipping, and      This rule will apply only to a specific      Office of the Chairman of the Joint
conduct of personnel performing private      sector of defense industry and a limited     Chiefs of Staff and the Joint Staff, the
security functions under such contract.      number of small entities.                    Combatant Commands, the Office of the
   This Interim Final Rule meets                                                          Inspector General of the Department of
requirement (i). There will be a separate    Public Law 96-511, "Paperwork                Defense, the Defense Agencies, the DoD
and subsequent Federal Register action       Reduction Act" (44 U.S.C. Chapter 35)        Field Activities, and all other
to meet requirement (ii) to update the         It has been certified that 32 CFR part     organizational entities in the
FAR.                                         159 does impose reporting or                 Department of Defense (hereafter
                                             recordkeeping requirements under the         referred to as the "DoD Components").
Executive Order 12866, "Regulatory           Paperwork Reduction Act of 1995.               (2) The Department of State and other
Planning and Review"                         These requirements have been approved        U.S. Federal agencies insofar as it
  It has been certified that 32 CFR part     by OMB and assigned OMB Control              implements the requirements of section
159 does not:                                Numbers 0704-0460, "Synchronized             862 of Public Law IlG-181.
  (1) Have an annual effect on the           Predeployment and Operational Tracker        Specifically, in areas of operations
economy of $100 million or more or           (SPOT) System" and 0704-0461,                which require enhanced coordination of
adversely affect in a material way the       "Qualification to Possess Firearms or        PSC and PSC personnel working for
economy; a section of the economy;           Ammunition."                                 U.S. Government (U.S.G.) agencies, the
productivity; competition; jobs; the                                                      Secretary of Defense may designate such
environment; public health or safety; or     Executive Order 13132, "Federalism"          areas as areas of combat operations for
State, local, or tribal governments or         It has been certified that 32 CFR part     the limited purposes of this part. In
communities;                                 159 does not have federalism                 such an instance, the standards
                                                                                                                                 40
34692              Federal Register / Vol. 74, No. 136/ Friday, July 17, 2009/ Rules and Regulations

established in accordance with this part       A subcontract at any tier under such                Regulation (FAR) 3 and the Defense
would, in coordination with the             a contract; or                                         Federal Acquisition Regulation
Secretary of State, expand from covering      A task order or delivery order issued                Supplement (DFARS).4
only DoD PSCs and PSC personnel to          under such a contract or subcontract.                     (c) In a designated area of combat
cover all U.S.G.-funded PSCs and PSC           Also includes contracts or                          operations, the relevant Chief of Mission
personnel operating in the designated       subcontracts funded under grants and                   will be responsible for developing and
area.                                       sub-grants by a Federal agency for                     issuing implementing instructions for
   (b) Prescribes policies applicable to    performance in an area of combat                       non-DoD PSCs and their personnel
all:                                        operations as designated by the                        consistent with the standards set forth
   (1) DoD PSCs and PSC personnel           Secretary of Defense. Excludes                         by the geographic Combatant
performing private security functions       temporary arrangements entered into by                 Commander in accordance with
during contingency operations outside       non-DoD contractors or grantees for the                paragraph (b) ofthis section. The Chief
the United States.                          performance of private security                        of Mission has the option to instruct
   (2) USG-funded PSCs and PSC              functions by individual indigenous                     non DoD PSCs and their personnel to
personnel performing private security       personnel not affiliated with a local or               follow the guidance and procedures
functions in an area of combat              expatriate security company. Such                      developed by the Geographic Combatant
operations, as designated by the            arrangements must still be in                          Commander and/or Subordinate
Secretary of Defense.                       compliance with local law.                             Commander.
                                               Private security functions. Activities                 (d) The requirements of this part shall
§ 159.3. Definitions.
                                            engaged in by a contractor under a                     not apply to contracts entered into by
   Unless otherwise noted, these terms      covered contract as follows:
and their definitions are for the purpose                                                          elements of the intelligence community
                                               (1) Guarding of personnel, facilities,
of this part.                                                                                      in support of intelligence activities.
                                            designated sites, or property of a Federal
   Area of combat operations. An area of agency, the contractor or subcontractor,                  § 159.5.   Responsibilities.
operations designated as such by the        or a third party.l
Secretary of Defense for the purpose of                                                               (a) The Assistant Deputy Under
                                               (2) Any other activity for which
this part, when enhanced coordination                                                              Secretary of Defense for Program
                                            personnel are required to carry weapons
of PSCs working for U.S.G. agencies is                                                             Support, under the authority, direction,
                                            in the performance of their duties. For                and control of the Deputy Under
required.                                   the DoD, DoDI Instruction 3020.41,
   Contingency operation. A military                                                               Secretary of Defense for Logistics and
                                            "Contractor Personnel Authorized to
operation that is either designated by                                                             Materiel Readiness, shall monitor the
                                            Accompany the U.S. Armed Forces," 2
the Secretary of Defense as a                                                                      registering, processing, and accounting
                                            prescribes policies related to personnel               of PSC personnel in an area of
contingency operation or becomes a          allowed to carry weapons for self
contingency operation as a matter of law defense.                                                  contingency operations.
(10 U.S.c. 101(a)(13)). It is a military       PSC. During contingency operations                     (b) The Director, Defense Procurement
operation that: a. Is designated by the     "PSC" means a company employed by                      and Acquisition Policy, under the
Secretary of Defense as an operation in     the DoD performing private security                    authority, direction, and control ofthe
which members of the Armed Forces are functions under a covered contract. In a                     Deputy Under Secretary of Defense for
or may become involved in military          designated area of combat operations,                  Acquisition and Technology
actions, operations, or hostilities against the term "PSC" expands to include all                  (DUSD(AT)), shall ensure that the
an enemy of the United States or against companies employed by U.S.G. agencies                     DFARS and (in consultation with the
an opposing force; or b. Is created by      performing private security functions                  other members of the FAR Council) the
definition of law. Under 10 U.S.c.          under a covered contract.                              FAR provide appropriate guidance and
101(a)(13)(B), a contingency operation         PSC personnel. Any individual                       contract clauses consistent with this
exists if a military operation results in   performing private security functions                  part and paragraph (b) of section 862 of
the (1) call-up to [or retention on) active under a covered contract.                              Public Law 110-181.
duty of members of the uniformed                                                                      (c) The Director, Defense Business
Services under certain enumerated           § 159.4. Policy.                                       Transformation Agency, under the
statutes (10 U.S.C. 688, 12301(a), 12302,      (a) Consistent with the requirements                authority, direction, and control of the
12304,12305,12406,or331-335);and            of paragraph (a)(2) of section 862 of                  Deputy Chief Management Officer of the
(2) the call-up to (or retention on) active Public Law 110-181, the selection,                     Department of Defense, through the
duty of members of the uniformed            training, equipping, and conduct of PSC                DUSD(AT), shall ensure that
Services under any other (non­              personnel including the establishment                  information systems effectively support
enumerated) provision of law during         of appropriate processes shall be                      the accountability and visibility of
war or national emergency declared by       coordinated between the DoD and the                    contracts, contractors, and specified
the President or Congress. These may        Department of State.                                   equipment associated with private
include humanitarian or peacekeeping           (b) Geographic Combatant                            security functions.
operations or other military operations     Commanders will provide tailored PSC                      (d) The Chairman of the Joint Chiefs
or exercises.                               guidance and procedures for the                        of Staff shall ensure that joint doctrine
   Contractor. The contractor,               operational environment in their Area of              is consistent with the principles
subcontractor, grantee, or other party      Responsibility (AOR) in accordance                     established by DoD Directive 3020.49
carrying out the covered contract.          with this part, the Federal Acquisition                "Orchestrating, Synchronizing, and
   Covered contract. A DoD contract for                                                            Integrating Program Management of
performance of services in an area of         1 Contractors performing private security
                                                                                                   Contingency Acquisition Planning and
contingency operations or a contract of     functions are not authorized to perform inherently
a non-DoD Federal agency for                governmental functions. In this regard. they are
                                            limited to a defensive response to hostile acts or       3 Published in Title 48 of the Code of Federal
performance of services in an area of       demonstrated hostile intent.                           Regulations.
combat operations, as designated by the       2 Available at http://www.dtic.mi]/whs/directives/     4 Published in Title 48 of the Code of Federal

Secretary of Defense;                       corres/pdf/302041p.pdf.                                Regulations.

                                                                                                                                            41
                     Federal Register/Vol. 74, No. 136/Friday, July 17, 2009/Rules and Regulations                                                   34693

Its Operational Execution," 5 DoD                      security considerations and                          approved prior to the weapons
Instruction 3020.41, "Contractor                       requirements).                                       authorization.
Personnel Authorized to Accompany                        (f) The Heads of the DoD Components                   (iii) Arming of PSC personnel.
the U.S. Armed Forces," and this part.                 shall:                                               Requests for permission to arm PSC
   (e) The geographic Combatant                          (1) Ensure that all private security­              personnel shall be reviewed on a case­
Commanders in whose AOR a                              related requirement documents are in                 by-case basis by the appropriate Staff
contingency operation is occurring, and                compliance with the procedures listed                Judge Advocate to the geographic
within which PSCs and PSC personnel                    in § 159.6 of this part and the guidance             Combatant Commander (or a designee)
perform under covered contracts, shall:                and procedures issued by the                         to ensure there is a legal basis for
   (1) Provide guidance and procedures,                geographic Combatant Command,                        approval. The request will then be
as necessary and consistent with the                     (2) Ensure private security-related                approved or denied by the geographic
principles established by DoD Directive                contracts contain the appropriate                    Combatant Commander or a specifically
3020.49, "Orchestrating, Synchronizing,                clauses in accordance with the                       identified designee, no lower than the
and Integrating Program Management of                  applicable FAR clause and include                    flag officer level. Requests to arm non­
Contingency Acquisition Planning and                   additional mission-specific                          DOD PSC personnel shall be reviewed
Its Operational Execution," DoD                        requirements as appropriate.                         and approved in accordance with
Instruction 3020.41, "Contractor                       § 159.6. Procedures.                                 § 159.4(c) of this part. Requests for
Personnel Authorized to Accompany                         (a) Standing Combatant Command                    permission to arm PSC personnel shall
the U.S. Armed Forces," 6 and this part,               Guidance and Procedures. Each                        include:
for the selection, training, accountability            geographic Combatant Commander shall                    (A) A description of where PSC
and equipping of such PSC personnel                    develop and publish guidance and                     personnel will operate, the anticipated
and the conduct of PSCs and PSC                        procedures for PSCs and PSC personnel threat, and what property or personnel
personnel within their AOR. Individual                 operating during a contingency                       such personnel are intended to protect,
training and qualification standards                   operation within their AOR, consistent               if any.
shall meet, at a minimum, one of the                   with applicable law; this part;                         (B) A description of how the
Military Departments' established                      applicable Military Department                       movement of PSC personnel will be
standards.                                             publications; and other applicable DoD               coordinated through areas of increased
   Within a geographic Combatant                       issuances to include DoD Directive                   risk or planned or ongoing military
Command, Subordinate Commanders
                                                       3020.49, "Orchestrating, Synchronizing, operations, including how PSC
shall be responsible for developing and                and Integrating Program Management of personnel will be rapidly identified by
issuing implementing procedures as                     Contingency Acquisition Planning and                 members of the U.S. Armed Forces.
warranted by the situation, operation,                 Its Operational Execution," DFARS,                      (C) A communication plan, to include
and environment, in consultation with                  DoD Directive 2311.01E, "DoD Law of                  a description of how relevant threat
the relevant Chief of Mission in                       War Program," 8 DoD 5200.8-R,                        information will be shared between PSC
designated areas of combat operations.                 "Physical Security Program," 9 qCSI                  personnel and U.S. military forces and
   (2) Through the Contracting Officer,                                                                     how appropriate assistance will be
                                                       3121.01B, "Standing Rules of
ensure that PSC personnel acknowledge,
                                                       Engagement/Standing Rules for the Use                provided to PSC personnel who become
through their PSC, their understanding                                                                      engaged in hostile situations. DoD
                                                       of Force for U.S. Forces," and DoD
and obligation to comply with the terms
                                                       Directive 5210.56, "Use of Deadly Force contractors performing private security
and conditions of their covered                                                                             functions are only to be used in
                                                       and the Carrying of Firearms by DoD
contracts.
   (3) Issue written authorization to the              Personnel Engaged in Law Enforcement accordance with DoD Instruction
                                                       and Security Duties." 10 The guidance                1100.22, "Guidance for Determining
PSC identifying individual PSC
                                                       and procedures shall:                                Workforce Mix," 11 that is, they are
personnel who are authorized to be
                                                          (1) Contain, at a minimum,                        limited to a defensive response to
armed. Rules for the use of force,
                                                       procedures to implement the following                hostile acts or demonstrated hostile
developed in accordance with Chairman
                                                       processes, and identify the organization intent.
of the Joint Chief of Staff Instruction
                                                       responsible for managing these                          (D) Documentation of individual
3121.01B, "Standing Rules of
                                                       processes:                                           training covering weapons
Engagement/Standing Rules for the Use                     (i) Registering, processing, accounting familiarization and qualification, rules
of Force for U.S. Forces," 7 shall be                  for and keeping appropriate records of
included with the written authorization.                                                                    for the use of force, limits on the use of
                                                       PSCs and PSC personnel in accordance                 force including whether defense of
   (4) Ensure that the procedures, orders,
                                                       with DoD Instruction 3020.41,                        others is consistent with host nation
directives and instructions prescribed
                                                       "Contractor Personnel Authorized to                  Status of Forces Agreements or local
§ 159.6(a) of this part are available
                                                       Accompany the U.S. Armed Forces."                    law, the distinction between the rules of
through a single location (to include an                  (ii) PSC verification that PSC
Internet Web site, consistent with                                                                          engagement applicable to military forces
                                                       personnel meet all the legal, training,              and the prescribed rules for the use of
                                                       and qualification requirements for                   force that control the use of weapons by
  5 Available from http://www.dtic.millwhsl

directiveslcorreslpd[l302040p.pdf.                     authorization to carry a weapon in                   civilians, and the Law of Armed
  6 Available from http://www.dtic.millwhs/
                                                       accordance with the terms and                        Conflict.
directiveslcorreslhtmI1302041.htm.                     conditions of their contract and host                   (E) Written acknowledgment by the
  7 qCSI 3121.01B provides guidance on the             country law. Weapons accountability                  PSC and its individual PSC personnel,
standing rules of engagement (SROEj and                procedures will be established and
establishes standing rules for the use of force                                                             after investigation of background of PSC
(SRUFj for DOD operations worldwide. This                                                                   personnel by the contractor, verifying
document is classified secret. CJCSI 3121.01B is         "Available at http://www.dtic.mil/whsldirectivesl such personnel are not prohibited under
available via Secure Internet Protocol Router          correslhtml/231101.htm.
                                                         9 Available at http://www.dtic.mi//whs/directives/
                                                                                                            U.S. law to possess firearms.
Network at http://js.smil.miIIf the requester is not
an authorized user of the classified network. the      correslpd[/520008rpdf.
requester should contact Joint Staff J-3 at 703-614­     10 Available at http://www.dtic.mil/whsl         11 Available at http://www.dtic.mi/lwhsl
0425.                                                  directiveslcorreslh tmll52105 6.h 1m.            directiveslcorreslpd[1110022pp df.

                                                                                                                                                42
34694                 Federal Register/Vol. 74, No. 136/Friday, July 17, 2009/Rules and Regulations

   (F) Written acknowledgment by the                     with regard to the military mission or       and procedures prescribed in paragraph
PSC and individual PSC personnel that:                   international relations.                     (a) of this section are readily available
   (1) Potential civil and criminal                         (vi) The independent review and, if       and accessible by PSCs and their
liability exists under U.S. and local law                practicable, investigation of incidents      personnel (e.g., on a Web page and/or
or host nation Status of Forces                          reported pursuant to paragraphs              through contract terms), consistent with
Agreements for the use of weapons. 12                    (a)(l)(v)(A) through (a)(l)(v)(F) of this    security considerations and
   (2) Proof of authorization to be armed                section and incidents of alleged             requirements.
must be carried by each PSC personnel.                   misconduct by PSC personnel.                    (c) Subordinate Guidance and
   (3) PSC personnel may possess only                       (vii) Identification of ultimate          Procedures. The Subordinate
U.S.G.-issued and/or -approved                           criminal jurisdiction and investigative      Commander, in consultation with the
weapons and ammunition for which                         responsibilities, where conduct of           Chief of Mission, will issue guidance
they have been qualified according to                    U.S.G.-funded PSCs or PSC personnel          and procedures implementing the
paragraph (a)(l)(iii)(E) of this section.                are in question, in accordance with          standing combatant command
   (4) PSC personnel were briefed and                    applicable laws to include a recognition     publications specified in paragraph (a)
understand limitations on the use of                     of investigative jurisdiction and            of this section, consistent with the
force.                                                   coordination for joint investigations        situation and operating environment.
   (5) Authorization to possess weapons                  (i.e., other U.S.G. agencies, host nation,      (d) Consultation and Coordination.
and ammunition may be revoked for                        or third country agencies), where the        The Chief of Mission and the geographic
non-compliance with established rules                    conduct of PSCs and PSC personnel is         Combatant Commander/Subordinate
for the use of force.                                    in question.                                 Commander shall make every effort to
   (6) PSC personnel are prohibited from                    (viii) A mechanism by which a             consult and coordinate responses to
consuming alcoholic beverages or being                   commander of a combatant command             common threats and common concerns
under the influence of alcohol while                     may request an action by which PSC           related to oversight of the conduct of
armed.                                                   personnel who are non-compliant with         U.S.G.-funded PSC and their personnel.
   (iv) Registration and identification in               contract requirements are removed from       The Memorandum of Agreement
the Synchronized Predeployment and                       the designated operational area.             between the Department of Defense and
Operational Tracker (or its successor                       (ix) Interagency coordination of          Department of State on U.S.G. Private
database) of armored vehicles,                           administrative penalties or removal, as      Security Contractors 13 shall provide the
helicopters, and other vehicles operated                 appropriate, of non-DoD PSC personnel        framework for the development of
by PSC personnel.                                        who fail to comply with the terms and        guidance and procedures without regard
   (v) Reporting alleged criminal activity               conditions of their contract, as is          to the specific locations identified
or other incidents involving PSCs or                     applicable to this part.                     therein.
PSC personnel by another company or                         (x) Implementation of the training
                                                                                                        Dated: July 14, 2009.
any other person. All incidents                          requirements contained below in
                                                         paragraph (a)(2)(ii) of this section.        Patricia L. Toppings,
involving the following shall be
reported and documented:                                    (2) Specifically cover:                   OSD Federal Register Liaison Officer,
                                                            (i) Matters relating to authorized        Department ofDefense.
   (A) A weapon is discharged by an
individual performing private security                   equipment, force protection, security,       [FR Doc. E9-17059 Filed 7-16--{)9; 8:45 am]
functions;                                               health, safety, and relations and            BILLING CODE 5001-ll6-P

   (B) An individual performing private                  interaction with locals in accordance
security functions is killed or injured in               with DoD Instruction 3020.41,
the performance of their duties;                         "Contractor Personnel Authorized to
   (C) A person other than an individual                 Accompany the U.S. Armed Forces."
performing private security functions is                    (ii) Predeployment training
killed or injured as a result of conduct                 requirements addressing, at a minimum,
by PSC personnel;                                        the identification of resources and
   (D) Property is destroyed as a result of              assistance available to PSC personnel as
conduct by a PSC or PSC personnel;                       well as country information and cultural
   (E) An individual performing private                  training, and guidance on working with
security functions has come under                        host country nationals and military
attack including in cases where a                        personnel.
weapon is discharged against an                             (iii) Rules for the use of force and
individual performing private security                   graduated force procedures.
functions or personnel performing such                      (iv) Requirements and procedures for
functions believe a weapon was so                        direction, control and the maintenance
discharged; or                                           of communications with regard to the
   (F) Active, non-lethal counter­                       movement and coordination of PSCs
measures (other than the discharge of a                  and PSC personnel, including
weapon) are employed by PSC                              specifying interoperability
personnel in response to a perceived                     requirements. These include
immediattl threat in an incident that                    coordinating with the Chief of Mission,
could significantly affect U.S. objectives               as necessary, private security operations
                                                         outside secure bases and u.s.
   12. This requirement is specific to arming            diplomatic properties to include
procedures. Such written acknowledgement should          movement control procedures for all
not be construed to limit civil and criminal liability   contractors, including PSC personnel.
to conduct arising from "the use of weapons." PSC
                                                            (b) Availability of Guidance and
personnel could be held criminally liable for any
conduct that would constitute a federal offense (see     Procedures. The geographic Combatant           13 Available at hllp:l/wwwacq.osd.milllog/PS/p_
ME]A, 18 USC 3261(a)).                                   Commander shall ensure the guidance          vault.hlml.

                                                                                                                                             43
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue NW 

          Washington, DC 20523 

            Tel.: 202–712–1150 

            Fax: 202–216–3047 

            www.usaid.gov/oig
